          OFFICE OF INSPECTOR GENERAL



                                   Catalyst for Improving the Environment


Evaluation Report


         Additional Analyses of Mercury Emissions
         Needed Before EPA Finalizes Rules for
         Coal-Fired Electric Utilities
         Report No. 2005-P-00003

         February 3, 2005
Report Contributors:                                  Rick Beusse
                                                      Carolyn Blair
                                                      Hilda Canes
                                                      Sarah Fabirkiewicz
                                                      James Hatfield
                                                      Erica Hauck
                                                      James Huber


Abbreviations
CAA             Clean Air Act
CAIR            Clean Air Interstate Rule
CHPAC           Children’s Health Protection Advisory Committee
EPA             Environmental Protection Agency
FACA            Federal Advisory Committee Act
OIG             Office of Inspector General
ICR             Information Collection Request
IGCC            Integrated Gasification Combined Cycle
IPM             Integrated Planning Model
OMB             Office of Management and Budget
MACT            Maximum Achievable Control Technology
NTEC            National Tribal Environmental Council
NOX             Nitrogen Oxide
OCHP            Office of Children’s Health Protection
SO2             Sulfur Dioxide




Cover photo:	      Virginia Electric Power Company's coal-fired plant at Mt. Storm, West Virginia.
                   Source: http://www.oag.state.ny.us/press/2000/nov/nov16a_00_pictures.html
                       U.S. Environmental Protection Agency                                              2005-P-00003
                                                                                                       February 3, 2005
                       Office of Inspector General


                       At a Glance

                                                                         Catalyst for Improving the Environment
Why We Did This Review            Additional Analyses of Mercury Emissions Needed
Members of the Senate             Before EPA Finalizes Rules for Coal-Fired Electric Utilities
Environment and Public             What We Found
Works Committee requested
that we review EPA’s              Evidence indicates that EPA senior management instructed EPA staff to develop a
development of its proposed       Maximum Achievable Control Technology (MACT) standard for mercury that
rule for controlling mercury      would result in national emissions of 34 tons annually, instead of basing the
emissions from coal-fired         standard on an unbiased determination of what the top performing units were
electric utilities.               achieving in practice. The 34-tons-per-year target was based on the amount of
                                  mercury reductions expected to be achieved from implementation of nitrogen oxide
Background                        (NOx) and sulfur dioxide (SO2 ) controls under a separately proposed, but related,
                                  air rule. According to EPA officials, 34 tons represents the most realistic and
Coal-fired electric utilities     achievable standard for utilities. However, because the results of the MACT
represent the largest source of   standard were prescribed and prior estimates were lower than what was proposed,
airborne mercury emissions in     the standard likely understates the average amount of mercury emissions reductions
the United States. Once           achieved by the top performing 12 percent of utilities, the minimum level for a
airborne, mercury can be          MACT standard required by the Clean Air Act. Further, this MACT standard, as
deposited into water, where it    proposed, does not provide a reasonable basis for determining whether the MACT
bio-accumulates in fish and       or cap-and-trade approach provides the better cost benefit.
animals at the top of the food
chain. Human consumption of       The Agency’s cap-and-trade proposal can be strengthened to better ensure that
fish is the primary method of     anticipated emission reductions would be achieved. For example, utilities would
exposure to mercury, which        not need to install mercury-specific controls to achieve the interim cap, but could
has been shown to cause           meet the cap by implementing NOx and SO2 controls associated with another
neurological and fetal            proposed trading program. Also, the proposal does not adequately address the
developmental problems.           potential for hot spots. Further, provisions for units emitting small amounts of
                                  mercury could be improved.
On January 30, 2004, EPA
proposed rules for regulating     We also found that EPA’s rule development process did not comply with certain
mercury emissions from coal-      Agency and Executive Order requirements, including not fully analyzing the cost-
fired steam generating electric   benefit of regulatory alternatives and not fully assessing the rule’s impact on
utility units. EPA proposed       children’s health.
two options for controlling
mercury emissions, one a
                                  What We Recommend
control technology standard
with emission limits and the
other a performance based         We recommend that EPA re-analyze mercury emissions data collected for the top
cap-and-trade approach.           performing 12 percent of units to develop a MACT floor. The Agency should also
                                  conduct a revised cost-benefit analysis for the updated MACT that takes into
For further information,
                                  account the impact of mercury co-benefits achieved through the proposed Clean Air
contact our Office of
                                  Interstate Rule. The results of the cost-benefit review should be compared to the
Congressional and Public
                                  cost-benefit of the proposed cap-and-trade option to determine the most cost
Liaison at (202) 566-2391.
                                  beneficial option for controlling mercury emissions. We also recommend that EPA
                                  strengthen its cap-and-trade proposal by more fully addressing the potential for hot
To view the full report,
                                  spots; revising the safety valve proposal so that it is used only as intended during
click on the following link:
                                  periods of unanticipated market volatility; and revising the proposed exemption for
www.epa.gov/oig/reports/2005/
                                  small emitters. Further, we recommend that the Agency conduct more in-depth
                                  analyses of the regulatory alternatives and children’s health impacts as required by
20050203-2005-P-00003.pdf
                                  Executive Orders. The Agency’s response to the draft report did not specifically
                                  address our recommendations, but raised concerns about certain aspects of the
                                  report.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                        February 3, 2005

MEMORANDUM

SUBJECT:	             Evaluation Report: Additional Analyses of Mercury Emissions Needed
                      Before EPA Finalizes Rules for Coal-Fired Electric Utilities
                      Report No. 2005-P-00003

TO:	                  Jeffrey R. Holmstead
                      Assistant Administrator for Air and Radiation


This memorandum transmits the results of an Office of Inspector General (OIG) evaluation
regarding the Environmental Protection Agency’s (EPA) development of the proposed rule for
regulating mercury emissions from coal-fired steam generating electric utility units. This report
contains findings that should help EPA in its efforts to develop the final rule. Also, the report
contains corrective actions the Office of Inspector General (OIG) recommends. This report
represents the opinion of the OIG and the findings contained in this report do not necessarily
represent the final EPA position. Final determinations on matters in this report will be made by
EPA managers in accordance with established procedures.

Action Required

In accordance with EPA Directive 2750, as the action official, you are required to provide this
Office with a written response within 90 days of the final report date. The response should
address all recommendations. For the corrective actions planned but not completed by the
response date, please describe the actions that are ongoing and provide a timetable for
completion. Where you disagree with a recommendation, please provide alternative actions for
addressing the findings reported.

We appreciate the efforts of EPA officials and staff in working with us to develop this report. If
you or your staff have any questions regarding this report, please contact me at (202) 566-0847
or Kwai Chan, Assistant Inspector General for Program Evaluation, at (202) 566-0827.




                                                     Nikki L. Tinsley
Attachment


cc: 	   Steve Johnson, Acting Administrator
        William Farland, Acting Deputy Assistant Administrator for Science, ORD
        Ann Klee, General Counsel
        Pete Cosier, Audit Followup Coordinator, OAR
        Kwai Chan, Assistant Inspector General for Program Evaluation, OIG
        Mark Bialek, Counsel, OIG
                                   Table of Contents

At a Glance

Chapters

  1 	 Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1

                  Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1 

                  Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1 

                  Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 

                  Results in Brief . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


  2	    Mercury MACT Development Compromised . . . . . . . . . . . . . . . . . . . . . . . . . . .                               11


                  Requirements for MACT Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                  EPA’s Process for Addressing Variability in Computation

                         of Mercury MACT Floor . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                  EPA Staff Instructed to Develop MACT Floor That Would Result in

                         National Emissions of 34 Tons . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                  Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

                  Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

                  Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


  3	    Cap-and-Trade Option Can Be Strengthened . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


                  EPA’s Proposed Cap-and-Trade Approach . . . . . . . . . . . . . . . . . . . . . . . . . . 18

                  Proposed Cap-and-Trade Program Needs to Further Address

                        Certain Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                  Proposed Emissions Trading Rule Should Also Address Tribal Concerns . . . 24

                  Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

                  Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

                  Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


  4	    Rule Development Process Not Consistent with 

        Expected and Past Practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


                  Description of Rulemaking Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

                  Some FACA Members Considered Job Unfinished . . . . . . . . . . . . . . . . . . . . 28

                  Intra-Agency Review Limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

                  Requirements for Cost-Benefit Analyses Not Fully Implemented . . . . . . . . . . 32

                  Required Children’s Health Analysis Not Completed . . . . . . . . . . . . . . . . . . . 33

                  Scope Limitations: Inter-Agency Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

                  Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

                  Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

                  Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35



                                                                i
Appendices
 A   Timeline of Events Related to Development of Mercury Rule . . . . . . . . . . 37


 B   OIG’s Request for Documents Related to Development

     of Utility MACT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39


 C   Different MACT Floor Proposals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43


 D   EPA’s Rule Development Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44


 E   Agency Comments to the Draft Report and OIG Evaluation . . . . . . . . . . . 46


 F   Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54





                                                        ii
                                Chapter 1
                                 Introduction
Purpose

          The Office of Inspector General (OIG) initiated this review based on a request
          from members of the Senate Environment and Public Works Committee. In their
          written request, the Senators expressed concerns with the process used to develop
          the Environmental Protection Agency’s (EPA’s) January 2004 proposed rule for
          regulating mercury emissions from coal-fired steam generating electric utility
          units. The proposed rule included two different options for regulating mercury
          emissions. One approach was a Maximum Achievable Control Technology
          (MACT) standard that would establish emission limits applicable to all coal-fired
          utility units. The other approach was a mercury cap-and-trade approach that
          would establish a national cap on mercury emissions and allow individual utilities
          to trade emissions allowances in a market-based system. The objectives of our
          evaluation were to determine:

          •	 Do the data and analyses in the docket demonstrate that the proposed MACT
             option reflects the maximum achievable reductions from coal-fired steam
             generating electric utility units?

          •	 Is the mercury cap-and-trade option, as proposed, sufficient to ensure public
             health protection?

          •	 What process did EPA follow in developing the proposed rule, and was this
             process consistent with applicable statutes, regulations, policy, guidance, and
             past Agency practice?

Background

          Mercury is released globally into the environment through natural processes, such
          as volcanoes, and also from human activity. Man-made releases of mercury are
          primarily due to the burning of mercury-containing fuels and wastes, and through
          industrial manufacturing processes. Man-made mercury emissions from the
          United States are estimated to account for roughly 3 percent of total global
          mercury emissions. Mercury from lead smelters, municipal waste combustors,
          hospital waste incinerators, manufacturing operations, and other sources are
          largely already regulated by EPA. In the United States, the largest source of
          airborne mercury emissions is the coal-burning electric utilities industry,
          representing an estimated 40 percent of total U.S. man-made airborne mercury

                                           1
emissions. EPA has estimated that one-third of all U.S. emissions of mercury are
deposited within the contiguous United States, while the remaining two-thirds
enter the global cycle. The January 2004 proposal is the first attempt to regulate
mercury emissions from these utilities at the Federal level.

Airborne concentrations of mercury are generally considered to be small and not a
serious health concern while still in the air. However, once mercury enters fresh­
water and salt-water bodies, either directly or through air deposition, it can
bioaccumulate in fish and other animal tissues in its more toxic form,
methylmercury. As mercury bioaccumulates in the food chain, its concentration
becomes increasingly higher in animals at the top of the food chain (such as larger
predatory fish) that consume smaller contaminated organisms. Because of the
bioaccumulation of methylmercury, the primary route of human exposure to
mercury is through the consumption of fish, both salt water and fresh water.
Excessive human exposure to mercury has been associated with severe
detrimental neurological and developmental health effects. Depending on the
dose, human health effects from exposure to mercury can include subtle losses of
sensory and cognitive ability, tremors, inability to walk, and death. The
developing fetus may be particularly sensitive to the detrimental effects of
methylmercury; thus, exposure to mercury by women of child-bearing age is of
particular concern.

From a global perspective, mercury accumulation in salt-water fish is a public
health concern. EPA and the Food and Drug Administration have cautioned that
young children, as well as women who might become pregnant, are pregnant, or
are nursing should limit their consumption of certain salt-water predatory fish.
Mercury bioaccumulation in U.S. water bodies is also a public health concern, and
45 States issued fish advisories for mercury in 2003. Many of these fish
advisories caution that women and young children should limit their consumption
of certain types of fish.

EPA Reference Dose for Methylmercury

Based on studies showing adverse health effects from exposure to methylmercury,
EPA set a reference dose for methylmercury that was designed to protect the most
sensitive subgroup (i.e., developing fetuses). An EPA reference dose reflects the
estimate of daily exposure to the human population, including sensitive
subgroups, that is not likely to cause harmful effects during a lifetime. The
current EPA reference dose for methylmercury – which was included in EPA’s
1997 Mercury Study Report to Congress – is 0.1 micrograms per kilogram of
body weight per day.




                                 2
                 Subsequent to EPA’s 1997 Mercury Study Report to Congress, Congress directed1
                 EPA to request the National Academy of Sciences to perform an independent
                 study on the toxicological effects of methylmercury and to prepare
                 recommendations on the establishment of a scientifically appropriate exposure
                 reference dose. The National Academy of Sciences completed its review in 2000,
                 and concluded that the EPA reference dose of 0.1 micrograms per kilogram was a
                 scientifically justifiable level for the protection of health.

                 The most recent results from Centers for Disease Control and Prevention’s
                 ongoing National Health and Nutrition Examination Survey show that mercury
                 blood levels of most children and women of childbearing age were below levels of
                 concern corresponding to the EPA reference dose. However, 5.66 percent of
                 childbearing-aged woman had blood mercury levels at or above the reference
                 dose. The survey also questions participants about their fish consumption. For
                 the 1999-2000 survey period, tuna and shrimp were the two most frequently cited
                 types of fish/shellfish consumed. These results, and other studies, suggest that
                 seafood (as opposed to fresh-water fish) is the predominant source of mercury
                 exposure in the United States. However, some subpopulations in the United
                 States consume more fish, including fresh-water fish, than the general population.
                 These groups may be at increased risk from mercury exposure. For example,
                 studies have shown elevated blood levels of mercury in some Native American
                 tribes that consumed fresh-water fish.

                 Statutory Requirements for Controlling Mercury Emissions from
                 Utility Plants

                 The Clean Air Act (CAA) requires EPA to regulate emissions of 188 air toxics
                 (also known as hazardous air pollutants), including mercury. EPA was to
                 identify and establish emission standards for major source categories emitting
                 these pollutants. Specifically, section 112(d) of the CAA requires EPA to
                 establish emission limits for major source categories emitting air toxics,
                 commonly referred to as MACT standards. The MACT standard is to require the
                 maximum degree of reductions achievable for the source category, taking into
                 consideration cost and any non-air quality health and environmental impacts.

                 A key requirement of section 112(d) is that emission standards for existing
                 sources in a category or subcategory shall not be less stringent than the average
                 emission limitation achieved by the best performing 12 percent of the existing
                 sources for which the Administrator has data. The emission limitation achieved
                 by the best performing 12 percent of sources is referred to as the “MACT floor.”



        1
         H.R. Rep. No. 769, 105th Cong., 2d Sess. at 281-282 (199 8). This is the Conference Repo rt to accompany
H.R. 4194, October 5, 1998.

                                                        3
                  The CAA also established specific requirements with respect to air toxics
                  emissions from utilities. Section 112(n)(1)(A) requires EPA to perform a study of
                  the hazards to public health that are reasonably anticipated to occur as a result of
                  air toxics emissions from electric utility steam generating units. This study was to
                  develop and describe alternative control strategies for emissions that may warrant
                  regulation under section 112. Further, with respect to regulating emissions from
                  utility plants, section 112(n)(1)(A) states:

                      The Administrator shall regulate electric utility steam generating units
                      under this section, if the Administrator finds such regulation is
                      appropriate and necessary after considering the results of the study
                      required by this subparagraph.

                  EPA published its Final Report2 with respect to utilities in February 1998, but
                  deferred making a determination as to whether regulation of these units was
                  appropriate and necessary. However, the Final Report concluded that:

                  •	 Mercury from coal-fired utilities was the air pollutant of greatest potential
                     concern to public health from utilities;
                  •	 Coal-fired utilities are estimated to emit about one-third (51 tons based on
                     1994 emissions) of U.S. anthropogenic (man-made) mercury emissions per
                     year;
                  •	 Ingestion of contaminated fish is the most important route of exposure to
                     mercury; and
                  •	 Modeling in conjunction with the available scientific data provides evidence
                     for a plausible link between emissions of mercury from utilities and the
                     methylmercury found in soil, water, air, and fish.

                  In its Final Report, EPA listed a number of research needs related to mercury
                  emissions. These included obtaining additional data on mercury emissions, such
                  as the amount emitted from various types of units; the proportion of divalent
                  versus elemental mercury;3 and how factors such as the control device, fuel type,
                  and plant configuration affect emissions and speciation.




         2
          Study of Hazardous Air Pollutant Emissions from Electric Utility Steam Generating Units - - Final Report
to Congress, EPA-453/R-98-004a, February 1998.

         3
          Airborne divalent mercury is adsorbed onto particles or bound to other compounds and is deposited
sooner and mainly in the vicinity of the emissions sources (local to regional distances), while elemental mercury
(vapor) remains airborne longer and is transported on a hemispherical/global scale.
                                                           4
                       Information Collection Request

                       Based on the research needs outlined in the Final Report, the then-EPA
                       Administrator concluded that obtaining additional information from
                       owner/operators of coal-fired electric utility steam generating units was needed to
                       determine whether regulation of electric utility steam generating units was
                       appropriate and necessary. Accordingly, EPA used its authority under CAA
                       section 114 to collect data from all domestic coal-fired electric utility steam
                       generating units. The resulting information collection request (ICR) consisted of
                       three phases of data collection:

                       •	 Phase I collected general information on every coal-fired electric generating
                          utility unit and was completed in January 1999.

                       •	 Phase II consisted of obtaining information on the amount of coal received on
                          a per shipment basis for the 1999 calendar year for every facility. In addition,
                          the mercury and chlorine content of the coal was reported for every sixth
                          shipment.

                       •	 Phase III consisted of emissions testing at 80 units,4 which were selected to
                          represent a cross-section of boiler and control device types. For each of the
                          80 units selected, testing for mercury was conducted at the inlet and outlet of
                          the last pollution control device on the unit. Each unit was to conduct three
                          separate test runs and to also sample and analyze the coal used during each of
                          the three separate runs.

                       December 2000 Findings and Determination

                       In a December 20, 2000, Federal Register Notice, EPA published its finding that
                       regulation of mercury emissions from coal-fired utility plants was appropriate and
                       necessary. The notice described four primary sources of information for the
                       finding:

                       •	 EPA’s February 1998 “Study of Hazardous Air Pollutant Emissions from
                          Electric Utility Steam Generating Units -- Final Report to Congress.”
                       •	 An ICR to all coal-fired electric utility steam generating units requesting coal
                          data for 1999 and a request to certain units for stack test results to evaluate air
                          toxics emissions.
                       •	 An evaluation of the mercury control performance of various emission control
                          technologies currently in use to control other pollutants or that could be
                          applied to such units to control mercury emissions.


            4
                Emission tests were actually conducted at 79 different units with 2 tests conducted at 1 unit for a total of
80 tests.
                                                                 5
                 •	 An evaluation of available health data related to mercury conducted by the
                    National Academy of Sciences.

                 The Notice concluded that, “. . . during the regulatory development process,
                 effective controls for mercury and other HAPs (hazardous air pollutants) can be
                 shown to be feasible." The Notice recognized the considerable interest in using
                 economic incentive programs, such as emission trading, to achieve emission
                 reductions. However, in its December 2000 notice, EPA cited concerns about the
                 potential local impact of emissions trading and noted that any trading program
                 must be constructed in a way that assured communities nearest a source were
                 adequately protected. The Notice stated:

                      Thus, in developing a standard for utilities, the EPA should consider the legal
                      potential for, and the economic effects of, incorporating a trading regime
                      under section 112 in a manner that protects the local populations.

                 After issuance of these findings and its determination that regulation of utilities
                 was appropriate and necessary, EPA began to develop a MACT standard for
                 mercury emissions from coal-fired electric utility units. Additionally, a
                 workgroup was established in August 2001 under the Clean Air Act Advisory
                 Committee to provide EPA with input regarding Federal MACT regulations for
                 coal-fired electric utility steam generating units. Appendix A provides a timeline
                 of events associated with the development of the MACT rule.

                 Clear Skies Proposal

                 Concurrent with EPA’s initial efforts to develop a MACT for utility units,
                 legislation was proposed in Congress5 to establish a multi-pollutant approach for
                 addressing mercury, sulfur dioxide (SO2), and nitrogen oxide (NOx) emissions
                 from utilities. This legislation, referred to as Clear Skies, proposed a cap-and-
                 trade approach to controlling emissions of these three pollutants. With respect to
                 mercury, the initial Clear Skies legislation called for an interim cap on total U.S.
                 mercury emissions of 26 tons per year by 2010. Based on modeling done in
                 support of the Clear Skies Proposal, EPA estimated that some facilities would
                 install mercury-specific technology by 2010 in order to meet the 26-ton cap.
                 Clear Skies proposed a final cap of 15 tons on mercury emissions by 2018, and
                 EPA analysis projected that additional sources would choose to install mercury-
                 specific controls to meet the cap.

                 When Clear Skies legislation stalled in Congress, EPA decided to propose a cap-
                 and-trade approach for controlling mercury emissions as an alternative to a


        5
          Clear Skies was proposed in both the U.S. House of Representatives and Senate in July 2002, and
reintroduced as the Clear Skies Act of 2003 on February 27, 2003.
                                                         6
                   MACT standard. EPA proposed these regulatory alternatives in the January 30,
                   2004, Federal Register Notice. In addition to the proposed mercury rule
                   alternatives, EPA on January 30, 2004, also proposed new air rules for reducing
                   SO2 and NOx emissions. This proposed rule, now known as the Clean Air
                   Interstate Rule (CAIR), would establish a cap-and-trade program for 29 States in
                   the Eastern United States and the District of Columbia whose SO2 and NOx
                   emissions significantly contribute to fine particle and ozone pollution problems in
                   other downwind States. Together, the CAIR and mercury proposals would create
                   a multi-pollutant approach to controlling emissions from utilities similar to what
                   was originally proposed in the Clear Skies legislation.

                   Proposed Mercury Rule

                   As a result of a prior court settlement6, EPA had agreed to issue proposed power
                   plant mercury emission standards by December 15, 2003. In the January 30,
                   2004, Federal Register Notice, EPA proposed its rule for regulating mercury
                   emissions from coal-fired steam generating electric utility units. This proposal
                   includes two different approaches for controlling mercury emissions from utilities:
                   a MACT standard or a mercury cap-and-trade program.

                   EPA’s Proposed MACT Standard Approach: EPA proposed separate emission
                   limits to be achieved by 2008 for five subcategories: three subcategories for
                   different coal types (bituminous, sub-bituminous, and lignite); one for coal refuse
                   or waste; and one for a specific type of combustion process known as Integrated
                   Gasification Combined Cycle (IGCC).7 Table 1-1 shows the specific per unit
                   emissions limits for existing units in the proposed rule.

                        Tab le 1-1: Propo sed M ACT Em ission Lim its
                         Sub categ ory              Em ission limit (lbs/TB tu)*
                           Bituminous                               2.0
                        Sub-bituminous                              5.8
                              Lignite                               9.2
                          Coal-Refuse                               0.38
                              IGCC                                  19.0
                   * = pounds per Trillion British thermal units.


                   These emission limits were based on what EPA determined to be the MACT
                   floor. EPA proposed that the MACT standard be based on the MACT floor as

        6
           Under a settlement agreement reached in 1998 with the Natural Resources Defense Council, EPA agreed
to issue a proposed rule for regulating mercury from power plants by December 15, 2003, and a final rule by
De cem ber 2 004 . (Natural Resources Defense Council v. EPA,D.C. Cir., No. 92-1415, 4/15/98). Natural Resources
Defense Council later agreed to extend the deadline for the final rule to March 15, 2005.

        7
            The IGCC process co nverts coal into gas and uses the coal gas as fuel for generating electricity.
                                                          7
                     opposed to a beyond-the-floor8 level because it concluded that technologies for
                     reducing mercury emissions were not commercially available and, thus, beyond-
                     the-floor emission standards were not achievable. EPA estimated that total
                     national mercury emissions would be reduced from 48 to 34 tons per year if the
                     proposed MACT rule was implemented.

                     EPA’s Proposed Cap-and-Trade Approach. In lieu of adopting a MACT
                     standard to regulate mercury emissions from utilities, EPA presented an
                     alternative proposal that would regulate mercury emissions from utility units
                     under a national cap-and-trade program implemented under section 111 of the
                     CAA.9 The cap-and-trade proposal included an unspecified interim cap on
                     mercury emissions in 2010 and a final cap of 15 tons by 2018. Though EPA did
                     not specify an interim cap level, the Agency proposed that it be based on the
                     maximum amount of mercury reductions that could be achieved through
                     implementing the controls necessary to reduce SO2 and NOx emissions, i.e., the
                     mercury co-benefit of these controls through implementation of CAIR. The
                     preamble to the rule states that EPA modeling indicated an expected co-benefit
                     level, which is the result of implementing the CAIR rule, resulting in mercury
                     emissions of 34 tons per year. EPA also took comment on administering the cap-
                     and-trade approach under CAA section 112 instead of section 111.10 The primary
                     difference between these two approaches is that a section 112 cap-and-trade
                     program would be administered centrally by EPA while the section 111 program
                     would be administered individually by States.

Scope and Methodology

                     We conducted our field work from May 2004 through December 2004, and did so
                     in accordance with Government Auditing Standards, issued by the Comptroller
                     General of the United States. We performed field work in EPA’s Office of Air
                     and Radiation locations in Washington, DC, and Research Triangle Park, North
                     Carolina. We interviewed staff from EPA offices and outside organizations to
                     gain an understanding of the rule as developed, other options considered, and the
                     rule development process. We interviewed officials from EPA’s Office of Air
                     and Radiation; Office of Research and Development; Office of Enforcement and
                     Compliance Assurance; and Office of Policy, Economics, and Innovation. We
                     also contacted environmental and utility industry representatives, and State, local,
                     and tribal organizations interested in the development of this proposed rule, to


         8
             A M AC T sta nda rd m ore strin gent tha n the floo r is referre d to a s “beyo nd-the -floor.”

         9
          Concurrent with this approach, EPA proposed to revise its December 2000 finding that regulating utilities
under section 112 was necessary and appropriate.

         10
             Th is app roac h wou ld no t requir e EP A to re vise its D ecem ber 2 000 finding, b ut wou ld req uire E PA to
“de-list” utilities as a source category requiring a MACT standard.
                                                                 8
obtain their views. We reviewed data and analyses developed in support of the
rule, and public comments included in the rulemaking docket. We also reviewed
related information provided by both EPA and non-EPA officials contacted.

The Government Accountability Office is conducting a review of technology-
related issues for the proposed mercury rule, which is an important consideration
in determining whether the MACT standard can be set at a level that is more
stringent than the floor. The Government Accountability Office report was not
available in December 2004 for consideration in the OIG report.

Limitations

Our evaluation was conducted and completed before the Agency had completed
the rulemaking process. Accordingly, our observations and characterizations
about the process reflect the status of the rulemaking process at the time we
completed our review. Issuance of the final rule is planned for March 15, 2005,
and the final rule may consider additional information or analyses not available at
the time we completed our review. For example, EPA released a notice of data
availability for the proposed Clean Air Mercury Rule on December 1, 2004. The
notice requests additional public comment on issues addressed in this report, and
solicits further comment on new data and information to help EPA evaluate which
regulatory approach will best reduce mercury emissions from power plants. We
did not specifically consider the notice because it was released after we had
completed our review and analyses. However, the notice includes information
available previously in the public comment docket for this rule, and it is possible
we had considered some of that information during our review.

The OIG was not provided with several important documents it requested from
the Agency; therefore, that information was not available for consideration in this
report. Our memorandum detailing the requested information, as well as specifics
on what information was provided by the Agency, are provided in Appendix B.
Consideration of the inter-agency review process was limited to information from
EPA staff and information available in the docket only. We were not able to
discuss the inter-agency review process with Office of Management and Budget
(OMB) staff who were responsible for coordinating the inter-agency review
process. The OIG did not independently analyze the databases or computer
modeling programs that EPA used in developing the proposed rule. With respect
to the development of the MACT standard, the OIG did not attempt to
independently calculate the MACT floor.




                                 9
Results in Brief

           Evidence indicates that EPA senior management instructed EPA staff to develop a
           MACT standard for mercury that would result in national emissions of 34 tons
           annually, instead of basing the standard on what the top performing units were
           achieving in practice. Also, we determined that EPA’s mercury cap-and-trade
           proposal – a nationwide emissions trading program for an air toxic – can be
           strengthened to better ensure that human health is protected and anticipated
           emission reductions achieved, should this approach to reducing mercury
           emissions be adopted. Further, although EPA rulemaking procedures are not
           consistently applied, Agency staff told us that they would have expected greater
           adherence to the guidance for mercury rule development due to the significance of
           this particular regulatory action, but this did not happen.

           We recommend that EPA re-analyze mercury emissions data collected, and
           conduct a revised cost-benefit analysis for the updated MACT that takes into
           account the impact of mercury co-benefits achieved through the proposed CAIR.
           We also recommend that the Agency strengthen its cap-and-trade proposal.
           Further, we recommend that the Agency conduct an integrated analysis with
           respect to whether emissions reductions under either of these proposals are the
           most child-protective, timely, and cost-effective.

           The Agency disagreed with certain aspects of our draft report, and offered
           suggested changes or revisions. The Agency’s response did not specifically
           address our recommendations. We made changes to the final report based on the
           Agency’s comments, as appropriate. See Appendix E for the full text of the
           Agency’s official comments to our draft report and our response to these
           comments.




                                           10
                               Chapter 2
      Mercury MACT Development Compromised
         Evidence indicates that EPA senior management instructed EPA staff to develop a
         MACT standard for mercury that would result in national emissions of 34 tons
         annually, instead of basing the standard on an unbiased calculation of what the top
         performing units were achieving in practice. The CAA requires that a MACT
         standard should, at a minimum, be based on the emissions levels achieved by the
         top performing 12 percent of units, not a targeted national emissions result. The
         34-tons-per-year target was based on the co-benefits expected to be achieved from
         implementation of NOx and SO2 controls under the proposed CAIR. EPA noted
         that this target was based on extensive analysis and, in EPA’s judgment,
         represented the lowest level of mercury emissions that it could reasonably expect
         the utility industry to achieve.

         Because the results of the MACT standard were prescribed and prior estimates
         were lower than what was proposed, we believe it likely that the standard
         understates the average amount of mercury emissions reductions achieved by the
         top performing 12 percent of power units. Some Agency officials told us that, in
         their opinion, the true MACT floor would result in lower mercury emissions than
         the 34 tons estimated from current MACT floor limits. Therefore, if this proposed
         MACT standard was adopted, it would not achieve the maximum emission
         reductions achievable and the associated health benefits. Further, this MACT
         standard, as proposed, does not provide a reasonable basis for comparison in
         determining which of EPA's two proposed regulatory alternatives (i.e., the MACT
         standard or the mercury cap-and-trade program) provides the better cost-benefit.

Requirements for MACT Standards

         In accordance with the CAA, EPA is to establish MACT standards that require
         the maximum emissions reductions the Agency believes are achievable for a
         major source category. At a minimum, the MACT standard cannot be less stringent
         than the average emission reductions achieved by the top performing 12 percent of
         units in a category (e.g., all coal-burning utilities) or subcategory (e.g., utilities
         burning bituminous coal) for which the Administrator has data. EPA has wide
         latitude in the types of emissions data used to determine the MACT floor,
         including the discretion to select a reasonable method to estimate emissions
         achieved, and to address variability to account for the most adverse operating
         conditions reasonably foreseeable. If EPA decides to set a limit beyond the floor,
         it must consider the cost of achieving those reductions, any resulting non-air
         quality and environmental impacts, and energy requirements.


                                          11
                  In accordance with a court settlement, EPA had agreed to publish its final mercury
                  rule by December 15, 2004. This date was re-negotiated with the court petitioner
                  and the final rule deadline was extended to March 15, 2005.

EPA’s Process for Addressing Variability in Computation of
Mercury MACT Floor

                  As provided under CAA section 112(d), EPA first determined whether a MACT
                  standard should be developed for all coal-fired units or sub-categories. EPA
                  analyzed the ICR data and identified the top performing units from all units for
                  which emissions data were collected. Evaluation of the ICR data for the top
                  performing units focused on coal type, plant processes, and control technology.
                  EPA could not identify a common attribute that contributed to mercury emission
                  reductions for all of the top performing units that would allow development of a
                  single MACT emissions limit for all units. Additionally, it was determined that
                  no units had installed mercury-specific control technology, although controls
                  installed to reduce emissions of other pollutants also helped reduce mercury
                  emissions. When no single common factor was identified, EPA evaluated the
                  data further and determined that sub-categorization by coal type, which is also a
                  driving factor in plant design, was warranted to establish the MACT. One
                  additional sub-category was established for a particular plant type – Integrated
                  Gasification Combined Cycle – because the plant burns gas from coal rather than
                  any particular type of coal.

                  For each sub-category, EPA identified the top performing units based on emission
                  tests collected during the ICR. However, EPA determined that these emission
                  tests alone did not sufficiently estimate the effect of fuel variability over time on
                  the emissions of the best performing units. To account for this variability, EPA
                  used coal composition data (i.e., mercury and chlorine content) for coal shipments
                  collected during the ICR to estimate emissions throughout the year for the top
                  performing units in each subcategory. This increased the number of emission
                  points available from which to calculate the MACT limits. 11

                  The emission points for each of the top performing units were ranked and then
                  EPA selected one of the highest emissions points (i.e., the 97.5 percentile) for
                  each unit. According to EPA, this emission point reflects the best performance
                  under the worst foreseeable operating conditions for the unit. EPA took the
                  average of these selected emission points for each sub-category and adjusted this


         11
             Prior court cases have upheld EPA’s right to consider variability in developing MAC T floors. For a
discussion of the appropriateness of EPA’s efforts to account for variability, see Cement Kiln Recycling Coalition v.
Envt’l Protection Agency, 255 F.3d 855 (D.C .Cir. 20 01) , examining, Sierra Club v. Envt’l Protection Agency, 167
F.3d 658 (D.C.Cir.1999) and National Lime Ass'n v. Envt’l Protection Agency, 233 F.3d 625, 629 (D.C.Cir.2000)
("N ationa l Lime I I").
                                                          12
                  average to further account for variability (i.e., the 97.5 percent upper confidence
                  level of the average). This adjusted average was established as the MACT floor
                  and the proposed standard for each subcategory.

                  Unlike many previous MACT standards, the proposed utility MACT standard
                  would not require the installation of a specific control technology since no
                  mercury-specific control technology had been installed in utilities. EPA
                  determined that emerging mercury-specific technologies were not yet
                  commercially available for the utility industry. The Government Accountability
                  Office is conducting a study to assess the current state of mercury control
                  technology.

EPA Staff Instructed to Develop MACT Floor That Would Result in
National Emissions of 34 Tons

                  Evidence indicates that EPA staff were instructed to develop a MACT standard
                  that would result in national emissions of 34 tons per year. Some staff told us that
                  they heard these specific directions and others told us that they heard in different
                  meetings during rule development that the application of the MACT floor to
                  utilities should equal 34 tons per year (a 29-percent reduction from the present
                  48-tons emitted nationwide). These statements were further corroborated by
                  internal EPA e-mails, which specifically identified 34 tons per year as the number
                  desired despite the fact that prior modeling results did not result in 34 tons.
                  E-mails between EPA staff discussed various MACT emission limits by
                  subcategory and modeling scenarios that could be used to get closer to the 34 tons
                  target. For example, a November 2003 e-mail stated that:

                       If the 14+K of subbit ACI is using the 90% option and we restrict this to
                       60%, perhaps we can get in the 34 tpy range. I don't think that restriction
                       would be considered inappropriate for a 2007 MACT analysis.

                  EPA documents and an analysis of the process used to compute the MACT floor
                  support EPA staff’s statements that the MACT floor computations were
                  developed to produce the desired national emissions of 34 tons per year.
                  Documentation that we reviewed indicated that EPA conducted at least three
                  Integrated Planning Model (IPM)12 runs in order to reach the pre-determined
                  target for national mercury emissions of 34 tons. The initial IPM run to try to
                  reach the 34-tons target yielded a national emission of 29 tons (i.e., the IPM
                  model indicated that mercury could be reduced from 48 tons to 29 tons). After
                  changing the proposed MACT emission limits, a second IPM model yielded a


         12
            EPA uses ICF Resources Incorporated’s Integrated Planning Model for air emission modeling. The
mod el pro jects wh at dec isions utilities w ould make for me eting air e mission regula tions b ased on ec ono mic
considera tions.
                                                             13
                   national emission of 27 tons. While we were provided summary information
                   about these two IPM model runs, they were not included in the EPA rulemaking
                   docket.

                   An Agency source indicated that these results were not acceptable to senior
                   management because they were not close enough to the 34-tons target. A third
                   run performed, based on the proposed emission limits, showed 31 tons. EPA
                   cited the 31-tons model results in the proposed rule, but explained in the preamble
                   that 34 tons is the more probable emissions level because the model used to
                   estimate emissions was underestimating the amount of mercury emissions that
                   would occur. EPA noted that the IPM model may have understated mercury
                   emissions by 2.3 tons for units burning bituminous coal.13 Table 2-1 depicts the
                   emission limits used in the three IPM runs and the resulting total national
                   emissions:

                             Table 2-1: Results of Proposed MACT Scenarios to Reach 34 Tons


                              Coal type                    Run #1               Run #2         Ru n #3 (Pro po sal)

                   Bituminous                               0.57 *               1.4 *               1.9679 *

                   Sub-bituminous                           6.46 *               5.06 *                5.8 *

                   Lignite                                  18.45 *             19.48 *                9.2 *

                   Total National Merc ury
                                                           29-30 **           27.2-27.9**             30-31 **
                   Em issions (tons-per-year)

                    * 	 Proposed per unit mercury emission standard expressed in pounds per trillion British thermal
                        units (lb/TBtu).
                   **	 Estimated tons of national mercury emission resulting from modeling the application of the
                        unit emission standard to all utility units.


                   The emission limits shown in Run #3 above, ultimately proposed as the MACT
                   standard, were based on a multi-variability analysis submitted by WEST
                   Associates (a western utility consortium).14 However, EPA adjusted this
                   approach, increasing the MACT floor emission limits for two of the three
                   subcategories beyond those derived by WEST Associates. For example, WEST
                   Associates used an upper confidence level of 95 percent of the mean of the best
                   performing units to account for variability. EPA adjusted the confidence level to


        13
            The IPM model only allows Activated Carbon Injection technology, a mercury specific control
technology, to reduce mercury emissions at 60% and 90 % levels. The inability of the model to address the full range
of reductions between these two levels means that the model may have understated mercury emissions by as much as
2.3 tons for bituminous-fired units.

        14
             Th e analysis was sub mitted during the last Federal Advisory Comm ittee Act meeting, con vened in
March 2003.
                                                          14
                  97.5 percent, which resulted in an increase in the emission limit for two of the
                  three sub-categories. According to EPA’s variability analysis, this adjustment was
                  made to account for EPA’s interpretation of the number of units that should be
                  included in the MACT floor analysis.15 These adjustments increased the MACT
                  floor closer to a national emission level of 34 tons per year.

                  Relationship of the 34-Ton Estimate to Cap-and-Trade Proposals

                  The 34-tons-per-year target is important because it is based on mercury emission
                  modeling results used in two separately proposed cap-and-trade programs for
                  utilities – CAIR and the mercury cap-and-trade program – proposed as
                  alternatives to the mercury MACT. EPA has stated its intent to implement its
                  multi-pollutant (mercury, SO2, and NOx) cap-and-trade programs, originally
                  included in stalled Clear Skies legislation, through the proposed CAIR and
                  mercury regulations.

                  EPA has also proposed that the mercury reductions gained from implementing
                  CAIR should serve as the interim cap on mercury emissions in the mercury cap-
                  and-trade program. According to the preamble to the mercury rule, the reason for
                  basing the interim cap on the co-benefits from CAIR is that the Agency does not
                  believe mercury control technology that has been demonstrated for all coal types
                  is commercially available. In addition, Agency officials stated that the
                  34-tons-per-year target was based on the co-benefits expected to be achieved from
                  implementation of NOx and SO2 controls under the proposed CAIR. They noted
                  that this target was based on extensive analysis and, in EPA’s judgment,
                  represents the lowest level of mercury emissions that they could reasonably expect
                  this industry to achieve by 2010.

                  Additional Estimates of Mercury Emissions

                  Interviews with sources both inside and outside the Agency suggest that if
                  unbiased analyses of data were conducted, a range of possible MACT floor levels
                  would most likely result. One EPA official stated that the true range of possible
                  MACT floors was probably as low as 8 to 10 tons per year up to the mid-20s, but
                  that either end of that range would be a stretch. Further, the source stated that the
                  real range is about 15 tons per year to the low 20s for this MACT, and that
                  anything above or below those numbers was a stretch. This includes the 34 tons
                  proposed by the Agency. These statements about the possible range of MACT
                  floors are supported by results of different MACT floor limits and/or varying
                  model assumptions used by some organizations providing comments to the


        15
            For example, W est Associates used 5 units for each sub-category, while EPA used 4 units for the
bitum inous a nd sub -bitumin ous su b-cate gorie s and 5 units fo r lignite sub -catego ry.

                                                         15
                 proposed rule. For example, the Clean Air Task Force evaluated the ICR data to
                 develop MACT floor limits that were different than those developed by EPA.
                 Applying these limits to the same IPM model used by EPA resulted in national
                 mercury emissions of 12 tons16 (i.e., a 75-percent reduction from 48 tons).
                 Modeling by the Electric Power Research Institute and Edison Electric Institute
                 used the MACT floor limits proposed in the rule and showed an estimated 32 tons
                 of mercury emissions nationwide (i.e., a 33-percent reduction from 48 tons).
                 Examples of varying modeling efforts and results can be found in Appendix C.

Conclusions

                 EPA’s current estimate of the amount of mercury emissions occurring after
                 implementing SO2 and NOx controls, called for in EPA’s CAIR, is 34 tons.
                 Given (1) that EPA is attempting to implement the Clear Skies multi-pollutant
                 approach through regulation; (2) the numerous modeling runs conducted to
                 determine national emission resulting from different MACT emission limits;
                 (3) the adjustments made in the accounting for variability; (4) the statements of
                 EPA officials involved in the rulemaking process; and (5) EPA e-mails reviewed,
                 we believe EPA’s approach for developing the MACT floor was compromised.
                 Further, it is unlikely that an unbiased calculation of the MACT floor would
                 produce emission limits that would result in estimated national mercury emissions
                 of 34 tons per year (i.e., EPA’s current estimate of the co-benefit of SO2 and NOx
                 proposed regulations).

Recommendations

                 We recommend that the Assistant Administrator for Air and Radiation:

                 2-1	 Conduct an unbiased analysis of the mercury emissions data to establish a
                       MACT floor in accordance with the requirements of CAA section 112(d).

                 2-2	 Re-negotiate with the court petitioner for an extension of the final
                       rulemaking deadline sufficient to solicit and accept public comments on
                       the unbiased analysis of mercury emissions data in an open, public, and
                       transparent manner.

Agency Comments and OIG Evaluation

                 The Agency commented that the draft report incorrectly characterized the
                 calculation of the MACT standard, and that the Agency had calculated the MACT


        16
             The Clean Air T ask Force considered the effect of implementing the proposed CAIR rule on the mercury
MACT . EPA did not consider the impact of implementing CAIR in its MACT modeling efforts. More information
on this issu e is foun d in C hap ter 4 o f this repo rt.
                                                          16
floor in accordance with the requirements of CAA section 112(d). The Agency
also maintained that its extensive work, including development of the proposed
Clear Skies legislation, showed that, in the absence of immediately available
mercury control technology, the mercury reductions as co-benefits of SO2 and
NOx controls represent the lowest level of mercury emissions that the Agency
reasonably expects could be achieved. We believe our report accurately
characterized the MACT development process. Our observations were based on
review of supporting documentation related to MACT development, and
interviews with Agency staff and stakeholders involved in the process, including
State and local, environmental, and industry groups. Although the MACT floor
was ostensibly based on data from the top performing 12 percent of units, this data
was analyzed with a final target already in mind, i.e., 34 tons. While the Agency
has conducted analysis to determine the co-benefit of SO2 and NOx controls, we
do not believe this meets the requirements of CAA section 112(d) in developing
the MACT standard. The Agency’s complete response to the draft report and our
evaluation of its response are in Appendix E.




                                17
                               Chapter 3
     Cap-and-Trade Option Can Be Strengthened
         EPA’s mercury cap-and-trade proposal – a nationwide emissions trading program
         for an air toxic – can be strengthened to better ensure that human health is
         protected and that anticipated emission reductions are achieved, should this
         approach to reducing mercury emissions be adopted. The cap-and-trade proposal
         could be strengthened by:

         •	 Adequately addressing the potential for hot spots.
         •	 Establishing an interim cap that would provide greater incentive for utilities to
            install mercury-specific control technology by 2010.
         •	 Setting a reasonable safety valve provision.
         •	 Clarifying conditions pertaining to exemptions for small emitting facilities.

         These changes could help ensure that the proposed mercury cap-and-trade
         program obtains the desired emissions reductions in a timely manner.

EPA’s Proposed Cap-and-Trade Approach
         A cap-and-trade program could provide several benefits in terms of controlling
         emissions. Trading programs generally provide regulated units with more
         flexibility to meet overall emissions reductions than do conventional command-
         and-control approaches because a unit may apply whichever control method it
         finds to be most appropriate and cost-effective to meet emission limits. This
         flexibility serves to minimize overall control costs in the market. Furthermore,
         cap-and-trade programs can provide greater environmental certainty by
         establishing fixed national emissions caps that cannot be exceeded. However, a
         cap-and-trade program’s environmental benefits will depend on the adequacy of
         the cap.

         Under EPA’s proposed mercury emissions trading program, units that cannot cost-
         effectively reduce emissions through controls may buy allowances from units that
         were able to reduce emissions beyond their established allowance limits and are
         willing to sell their extra allowances. Each unit is required to possess one
         emissions allowance per each ounce of mercury it emits. Units would be allowed
         to buy and sell credits among one another in a national emissions market. EPA’s
         proposed cap-and-trade alternative proposes that the interim mercury emissions
         cap for 2010 be based on the amount of mercury reductions achieved solely as a
         co-benefit through implementation of SO2 and NOx controls under the proposed
         CAIR. As noted in Chapter 2, EPA’s latest estimate of the mercury benefit from
         implementing CAIR is 34 tons per year. The cap-and-trade proposal sets a final
         cap of 15 tons per year in 2018.
                                          18
Proposed Cap-and Trade Program Needs to Further Address
Certain Issues
         The proposed cap-and-trade rule for mercury meets the three basic guiding
         principles of trading programs as defined by EPA: a cap on emissions,
         accountability, and simplicity of design and implementation. However, we
         identified four issues with EPA’s mercury cap-and-trade proposal that need to be
         further addressed. Details follow on each issue.

         Interim Cap Could Be Tightened to Force Earlier Development of
         Mercury-Specific Control Technology

         Although EPA has not yet set a specific interim cap for 2010, the preamble to the
         proposed rule states that the interim cap will be based solely on the mercury
         emissions reductions achieved as co-benefits of regulating SO2 and NOx under
         CAIR, estimated by EPA to be 34 tons. Thus, it would not be necessary for units
         to install mercury-specific controls in order to meet the 2010 interim cap, and this
         would limit the effectiveness of the regulation to force new technological
         advances in mercury control. If the interim cap under this proposal is set at 34
         tons, utilities could delay consideration of installing new mercury-specific
         technology until meeting the more stringent cap in 2018 is imminent. However,
         according to EPA officials, if the banking provision of the cap-and-trade program
         operates as intended, some facilities would have the incentive to implement
         mercury-specific controls before 2018, which would reduce emissions beyond the
         interim cap level before the final cap becomes effective. EPA officials also
         pointed out that experience under other cap-and-trade programs has shown that
         the largest emitters are typically the first to reduce emissions and will generally
         achieve the greatest level of reductions. According to the preamble, the reason for
         basing the interim cap solely on the co-benefits from CAIR is that EPA does not
         believe mercury control technology that has been demonstrated for all coal types
         is commercially available.

         Further, the proposed rule does not address what would happen under the cap-and-
         trade approach if CAIR is not implemented. Given that the 2010 cap is based
         solely on the co-benefits from CAIR, it is unclear what would occur under the
         proposed rule if CAIR is not implemented.

         An EPA official stated that although some EPA staff indicated they would like to
         see analyses on different cap levels for comparison purposes, no such formal
         analyses were conducted. EPA conducted one IPM run based on an interim cap of
         34 tons and a final cap of 15 tons (in conjunction with CAIR), but no runs were
         conducted using alternative caps for comparison. Clear Skies analyses were made
         available in the proposed mercury rule docket, and according to an EPA official
         the mercury cap-and-trade IPM run is comparable to the Clear Skies IPM runs.
         According to this EPA official, one such run of Clear Skies had a different interim
                                          19
cap (26 tons) and this run, while not exactly matching the modeling conducted for
the proposed mercury cap-and-trade program, provides an idea about the costs of
an alternative mercury cap.

Potential for Hot Spots Not Fully Analyzed

EPA did not fully analyze the potential for hot spots (i.e., areas of elevated
pollutant concentrations) to occur under its proposed cap-and-trade option. The
potential for hot spot formation under the proposed cap-and-trade rule has
generated a great deal of concern and debate among various stakeholders.
Modeling and projecting the likelihood of hot spots under the proposed rule is
made difficult by the relatively high degree of uncertainty involved with mercury
transport and deposition patterns (i.e., when the airborne mercury is deposited
onto the ground or into water bodies), particularly local or near-field deposition.

Further complicating efforts to use computer models to determine where mercury
deposition will occur is the fact that three different chemical forms of mercury are
emitted by utility units and each has varying deposition patterns. For example,
oxidized and particulate mercury are more likely to deposit locally or regionally,
while elemental mercury travels and is more global in nature. Although air
emission-related hot spots are generally thought of in terms of high ambient air
concentrations near a source, this is not the only consideration with mercury. The
main health risk associated with mercury is not its ambient concentrations, but
rather its deposition into water bodies and resulting bioaccumulation in fish.
However, the connection between air emissions and levels of mercury ultimately
found in fish tissue is not yet fully understood.

EPA’s Clean Air Markets Division conducted a Proximity Analysis to determine
“where, in relation to water bodies, emissions would occur” under the mercury
emissions trading provision of the Clean Air Interstate Rule. However, as noted
in the analysis, the issue of hot spots was not fully analyzed:

   This examination of projected mercury emissions has significant
   limitations and does not constitute an analysis of “hotspots.” Such an
   analysis of hotspots would, in part, necessitate detailed assessments of the
   atmospheric fate, transport, and deposition of mercury from power
   generating sources, and assessments of the potential population exposure
   to mercury contaminated fish in water bodies due to generating and other
   sources.

Although EPA did not conduct the detailed assessment of hot spots described
above, EPA stated in the preamble to the proposed rule that it does not expect hot
spots to occur for several reasons, as follows:



                                 20
C	 Modeling suggests that the largest emitters, which are more likely to produce
   local deposition, will be the first to implement control technology under a cap-
   and-trade approach and will reduce emissions by the largest amount.

C	 CAIR would result in implementation of control technologies for SO2 and
   NOx that also provide the co-benefit of reducing emissions of the types of
   mercury (oxidized and particulate) that are likely to deposit locally.

C	 The Acid Rain program has not resulted in the formation of hot spots.

C	 States have “the ability to address local health-based concerns separate from
   the mercury cap-and-trade program requirements,” and under the proposed
   State-administered program would “retain the power . . . to adopt stricter
   regulations to address local hot spots or other problems.”

C	 The proposed final cap would be a 70-percent reduction in mercury emissions
   from current uncontrolled levels (from 48 to 15 tons).

However, potential problems arise with EPA’s reasoning. For example, the Acid
Rain program controls for SO2 emissions, which are primarily deposited
regionally and globally, not locally, while mercury can deposit locally as well as
regionally and globally. Trading programs are generally thought to be most
effective for pollutants that do not deposit locally. Further, the Acid Rain
program co-exists with the National Ambient Air Quality Standards program,
which has established a minimum level of air quality for SO2, while no such
minimum standards exist as a back-stop in the mercury cap-and-trade proposal. In
addition, the Acid Rain program contains a provision stipulating that, in the case
of delayed implementation due to litigation, a more conventional command-and-
control approach would take effect, but the proposed cap-and-trade rule for
mercury lacks a similar provision.

While the preamble to the proposed rule notes that individual States have the
authority under section 111 to adopt stricter regulations than those set by EPA, it
does not address whether States would have this same authority under a section
112 cap-and-trade program. Further, approximately one-third of States have laws
limiting “the ability of their regulatory agencies to adopt regulations that are more
stringent than any federal environmental regulation.” Thus, these States may not
be able to adequately address hot spots, should they arise.

EPA has recognized that additional information is needed to better understand and
address potential hot spots. For example, in the preamble to the proposed rule,
EPA states its intent to reassess the hot spot issue by taking a “. . . hard look at the
Hg emissions inventory after full implementation of the first phase cap. . . ,” and
also requested comments on how it might address hot spots in a cap-and-trade
program. In addition, EPA suggested the use of trading ratios between regions as

                                  21
a way to address potential regional deposition differences. The Agency also
requested site-specific data on areas where commenters believe hot spots would
continue to exist if a cap-and-trade program were implemented.

Due to time constraints, the OIG did not fully evaluate potential environmental
justice implications resulting from a cap-and-trade program, nor did we fully
assess the extent of the Agency’s analysis of these issues.

Safety Valve Provision May Not Encourage Reductions

The proposed safety valve price may be set too low to achieve the intended effect
of reducing mercury emissions through the installation of control technology and
the open-market trading of emission allowances. The safety valve provision in the
proposed cap-and-trade mercury rule provides a price cap on the cost of emissions
reductions, and was included in the proposed rule due to uncertainties associated
with future costs and the availability of mercury control technologies. Under the
safety valve provisions of the proposed rule, if the price of allowances reaches a
certain level, units will be permitted to borrow allowances from the future for a
fixed price. To help ensure that the overall cap on emissions is met over the long-
term, units can borrow only from their own bank of future allowances. The
provision is intended to “minimize unanticipated market volatility” and ensure
that “the cost of control does not exceed a certain level.” Thus, in effect, units
may emit more in the current period, but would be forced to emit less in the future
because they are using future allowances. However, we identified two concerns
with the proposed safety valve provisions.

Safety Valve Price. For a safety valve provision to be used appropriately (that is,
only when market volatility makes it necessary), the price should be set so that it
is higher than the market price of allowances or the actual cost of abatement
(emission reduction). If this price is too low, it may be cheaper for the unit
operator to purchase future emissions allowance at the safety valve price rather
than installing emission controls. Under the proposed rule, the safety valve price
is set at $35,000 per pound, or $2,187.50 per ounce, adjusted annually for
inflation. This figure was decided upon during development of the Clear Skies
Initiative, but new analyses have estimated that the actual cost of abatement will
be substantially higher than $35,000 per pound.

Although EPA stated in one of the rule’s supporting documents that, “based on
current technological capabilities, the cost of mercury removal is expected to
reach the safety valve price ($35,000/lb) by 2010,” it further stated that
“technological improvements could decrease the cost of mercury control over time
and cause prices to remain below safety valve levels.” Staff within EPA indicated
that the current safety valve price of $35,000 was too low based on new analyses.
For example, 2003 and 2004 Department of Energy estimates show the “baseline
costs” of mercury removal to be $50,000 - $75,000 per pound, with cost
                                 22
reductions expected over time. However, senior EPA officials told us that they
did not believe the safety valve price would be reached because they expect the
cost of activated carbon injection, a mercury-specific control technology, to
decrease over time. According to these officials, the IPM does not account for
this variable and may be misleading since it shows the cost of activated carbon
injection remaining constant over time.

Safety Valve Borrowing. The proposed rule stated that units may purchase safety
valve allowances from "following years," and the supplemental notice stated they
may be purchased from allowances available for allocation in the next control
period. The supplemental notice also provided an example of how a State could
incorporate the safety valve provision into its cap-and-trade program. However,
the proposed safety valve provision does not place a limit on the number of
allowances a unit can borrow under this provision. As the Clean Air Task Force
writes in its comments, a unit could, theoretically, continue borrowing indefinitely
from future years by buying safety valve allowances in lieu of installing controls
or buying allowances on the open market. Such an approach would make
economic sense as long as the proposed safety valve price was set lower than the
baseline cost of controls. In the proposed rule, EPA acknowledges that its
"proposed approach may create implementation problems associated with the need
to 'reconcile' at some point in time the allowances borrowed from future
compliance periods," and requests comment on the issue.

Small Emitters Exemption Needs To Be Clarified

EPA has proposed that utility units emitting less than 25 pounds of mercury per
year be exempt from the cap-and-trade program, but has not completely addressed
how their exemption and the national emission cap will be impacted if their
emissions increase. EPA included this exemption because of concerns that new
mercury-specific control technologies expected to be developed may not
practicably apply to these units. Based on EPA data developed for units
operational in 1999, 396 of the 1,120 units operational in 1999 were estimated to
have emitted less than 25 pounds of mercury per year each. These 396 units made
up 35.4 percent of the total operating units, but contributed only 3,742 of the
95,975 pounds of estimated mercury emissions, or 3.9 percent in 1999.
According to the proposed rule’s preamble, EPA states there is reason to believe
that the 15-tons Phase II cap can be achieved in a cost effective manner, even if
the lowest emitting 396 units are excluded from coverage under this cap. EPA is
soliciting comment on this proposal.

One commenter noted that both capacity utilization and emission rate increases
could occur in small emitting sources after they have been exempted from cap-
and-trade requirements. EPA does not address this issue in the proposed rule.
Another commenter stated that EPA had done no analysis of the small emitter
exemption with respect to either costs or impacts. According to this commenter, a
                                 23
                vast majority of the units emitting less than 25 pounds of mercury are part of a
                multi-boiler facility, and it is entirely likely that at some facilities all of the boilers
                are tied into common duct work for pollution control. Consequently, these units
                should be considered as one unit emitting over 25 pounds and not eligible for the
                exemption.

                While we did not fully assess the impact of this, we believe the commenters have
                raised valid concerns. Further, we noted that the relative significance of these
                small emitters increases as the cap-and-trade program progresses. For example, in
                2018, these emitters, based on their 1999 emissions, would represent 12.5 percent
                of the total 15 tons in emissions allowed under the final cap. If EPA moves
                forward with its cap-and-trade proposal, the Agency can better ensure that
                anticipated emission reductions are achieved if it clearly addresses the
                circumstances under which small emitters would have to participate in the cap-
                and-trade program.

Proposed Emissions Trading Rule Should Also Address Tribal
Concerns

                Although Executive Order 13175 requires EPA to develop an “accountable
                process to ensure meaningful and timely input by tribal officials in the
                development of regulatory policies that have tribal implications,”17 tribal concerns
                were not addressed during development of the proposed cap-and-trade rule. In the
                preamble, EPA states that the proposed rule may have tribal implications because
                two coal-fired utility units are located in Indian Country. Representatives from
                the National Tribal Environmental Council (NTEC) informed us that neither they
                nor their approximately 180 member tribes had any involvement in the
                development of the proposed mercury rule. This was confirmed by an EPA
                official at a March 2004 public meeting on the proposed mercury rule.

                Among NTEC’s greatest concerns over the proposed mercury rule are:

                •	 the absence of tribal involvement and/or consultation in the development of
                   the proposal;
                •	 a failure to adequately monitor mercury deposition on tribal lands, which
                   means that the impact of mercury is unknown; and
                •	 lack of consideration for American Indians and Alaska Natives’ dependence
                   upon fish and the terrestrial animals that feed on those local fish.

                The average tribal member and child eats much more fish than the typical
                consumer and the representatives explained that tribes (especially children and the
                expanding youth population) are faced with increased adverse health effects


     17
          Consultation and Coordination with Indian Tribal Governm ents (65 FR 672 49, Novem ber 6, 2000).
                                                      24
         caused by such exposure.

         NTEC does not support the cap-and-trade program and noted that, if the program
         is implemented, there is no mechanism currently in place for the tribes to enter
         into cap-and-trade allowance sales. In fact, allowances are only available to the
         States. NTEC cited the U.S. Government’s trust responsibility, which includes
         looking after the health and survival of tribes. This responsibility is met in part by
         conducting tribal consultation on a government-to-government basis.

         EPA officials noted that other organizations, including States, were not consulted
         during the development of the cap-and-trade proposal. Although States were not
         consulted, we noted that States were allotted mercury allowances while the Tribes
         were not.

Conclusions

         The cap-and-trade proposal can be strengthened to better ensure that the
         anticipated emission reductions are achieved, should this approach be adopted by
         EPA. First, the interim cap suggested under the current proposal is set at a level
         that could be met without installing mercury-specific control technology, thus
         potentially delaying installation of mercury-specific controls until 2018. Also, the
         cap-and-trade option has not adequately addressed the potential for hot spots. In
         addition, EPA needs to ensure that it establishes a safety valve provision that will
         have the intended effect of encouraging unit operators to install controls or buy
         emission credits. Further, EPA needs to ensure adequate tribal involvement for
         the proposed mercury rule to ensure that tribes are not negatively impacted by a
         cap-and-trade rule.

Recommendations

         We recommend that the Assistant Administrator for Air and Radiation:

         3-1    Re-assess the basis for the interim and final caps. This analysis should
                consider the results of the re-assessed MACT floor (see Recommendation
                2-1).

         3-2    Further assess the risk of hot spots and, if CAA section 112 residual risk
                requirements are not implemented, then section 111 cap-and-trade
                regulations should specifically identify how EPA will meet its intention to
                reassess the hot spots issue.

         3-3    Strengthen the safety valve provision so that the safety valve price is set at
                a level whereby it is only used for its intended purpose of minimizing
                unanticipated market volatility. Alternatively, EPA may stipulate other

                                           25
                controls over borrowing from future allowances, such as imposing a
                greater than 1:1 allowance trading ratio; and allowances borrowed from
                the future will be reconciled to ensure that facilities cannot borrow
                indefinitely into the future.

         3-4	   Reassess the necessity of a small emitter exemption, and if a decision is
                made to exempt, explain in sufficient detail the reasoning for such a
                provision and establish how small emitters will be handled within the cap-
                and-trade program should they exceed emissions of 25 pounds a year.

         3-5	 Address tribal issues by: developing a mercury emissions consultation
               strategy with tribes, with the assistance of tribal representatives, that will
               ensure the Agency fulfills its trust responsibility and conducts proper
               government-to-government consultation with tribes; and establishing a
               mechanism for coal-fired utilities located on tribal lands to participate in
               the cap-and-trade approach.


Agency Comments and OIG Evaluation

         The Agency’s comments expressed a concern that the report does not
         “comprehensively and accurately describe” how the proposed cap-and-trade
         approach would work. The Agency also expressed concern that we did not
         highlight the knowledge EPA has gained from modeling and past experience with
         cap-and-trade programs. We believe our draft report portrayed an accurate
         representation of how the proposed mercury cap-and-trade program would work.
         One of the objectives of our review was to evaluate whether the proposed cap and
         trade rule was sufficiently protective of public health. As a result, we highlighted
         certain concerns with the rule as proposed. We made revisions, where
         appropriate, based on technical comments made by Agency staff and officials.
         However, there are several important differences between the Acid Rain program,
         to which the Agency often refers when discussing past cap-and-trade experience,
         and the proposed mercury cap-and-trade program. The Agency’s complete
         response to the draft report and our evaluation of its response are in Appendix E.




                                           26
                                Chapter 4
   Rule Development Process Not Consistent with
              Expected and Past Practices
          Although EPA rulemaking procedures are not always applied consistently, many
          Agency staff told us that they would have expected greater adherence to the
          guidance for mercury rule development due to the significance of this particular
          regulatory action, but this did not happen. When the Clear Skies legislation
          stalled, EPA decided to address the Clear Skies program in a regulatory manner
          instead. This led to EPA including a mercury cap-and-trade option, similar to
          Clear Skies, in its proposed mercury rule. As focus on the cap-and-trade approach
          increased, EPA began to de-emphasize the mercury MACT development process.
          This included:

          •	 Cancelling the next scheduled Federal Advisory Committee Act (FACA)
             meeting and ending communication with FACA members.
          •	 Abridging the normal intra-agency review process, particularly at the staff
             level.
          •	 Failing to fully address the cost-benefit of MACT alternatives and not
             analyzing the potential impact of implementing CAIR on the proposed MACT
             option.
          •	 Not fully analyzing the impact of the proposed mercury cap-and-trade program
             on children’s health.

Description of Rulemaking Process

          EPA’s Action Development Process: Guidance for EPA staff on Developing
          Quality Actions outlines steps EPA staff and management are to follow when
          developing Agency actions, such as rules, policy statements, and statutorily
          mandated reports to Congress. The guidance suggests that EPA staff follow a
          prescribed set of steps beginning with tiering the action based on several of its
          characteristics. Once tiered, a standard process exists for developing the proposed
          action. As a Tier One action, the proposed mercury utility rule was considered a
          top action that would “. . . demand the ongoing involvement of the
          Administrator’s office and extensive cross-Agency involvement on the part of the
          AAs/RAs (Assistant Administrators and Regional Administrators).”

          The Action Development Process guidance contains five key elements, which are
          summarized below. These include steps for:

          •	 planning sound scientific and economic analysis;

                                          27
               •	 developing and selecting regulatory options based on relevant scientific,
                  economic, and policy analyses;
               •	 involving affected Headquarters and Regional managers early and continuing
                  involvement until the final action is completed;
               •	 ensuring active and appropriate cross-Agency participation; and
               •	 encouraging appropriate and meaningful consultation with stakeholders
                  through substantive consultative procedures.

               Appendix D describes the rule development process in detail.

Some FACA Members Considered Job Unfinished

               Within EPA, the creation of an advisory committee is not required for MACT rule
               developments, but such groups have been formed to advise the Agency in past
               MACT rulemakings and can provide a means of substantive consultation with
               stakeholders. An EPA official noted that for contentious rulemakings where a
               great deal of stakeholder involvement and public comment is anticipated, such as
               the mercury rule, it is not uncommon for an advisory committee to be formed.
               FACA allows for the creation of committees, boards, commissions, councils, and
               similar groups to furnish expert advice, ideas, and diverse opinions to officers and
               agencies in the executive branch of the Federal Government. The Act notes that
               the function of committees is advisory only, and decisions on how the advice will
               be used is determined by the official, agency, or officer involved.

               The FACA working group for this rulemaking, known as the Utility MACT
               working group, was formed within the Permits/New Source Review Air Toxics
               Subcommittee of the larger Clean Air Act Advisory Committee. Working group
               members consisted of representatives from State and local agencies;
               environmental organizations; industry; control equipment vendors; and coal
               interests, producers, and unions. Both co-chairs of the group indicated that they
               believed the working group had balanced stakeholder representation.18 The
               working group was formed for an initial period of 1 year and met approximately
               once per month starting August 2001.

               The working group was charged with providing input for the development of a
               MACT standard for utilities. In a presentation given to the group by the EPA co­
               chair, the group was instructed that they were not to reconsider the Agency’s prior
               finding that regulation of coal-fired electric steam generating units under section
               112 of the CAA was necessary and appropriate, nor were they to consider a cap-
               and-trade option. Although a cap-and-trade option was introduced in Congress in
               July 2002 in the Clear Skies legislation, this option was not considered by the
               working group.


    18
         Although the working group did not include tribal representation, EPA solicited their participation.
                                                     28
In October 2002, the working group issued its final report, Recommendations for
the Utility Air Toxics MACT: Final Working Group Report, in which it identified
issues that "EPA must consider and resolve in its drafting of the utility MACT."
Some of the issues identified included:

•   sub-categories;
•   floor levels;
•   beyond-the-floor levels of mercury;
•   compliance method (monitoring); and
•   compliance time.

The working group decided early that consensus among its various stakeholder
groups was unlikely, and did not attempt to reach agreement on specific
recommendations it could make to the Agency. Instead, the report presented the
opinions of all the stakeholders on the issues.

Though the working group issued the final report in October 2002, it held another
meeting on March 4, 2003, just after Clear Skies legislation was re-proposed in
February. Certain members of the working group had requested that EPA conduct
additional analyses using the IPM to further explore the cost-benefit of different
MACT proposals as presented by the working group members. Members of the
working group did not have direct access to the IPM, as EPA contracts for its use
through a third party, and thus requested that EPA have the additional analyses
run and then provide the group with the results. According to several members of
the working group we contacted, it was expected that the working group would
receive the results of the additionally requested IPM runs at the March 4 meeting,
but were instead told the runs were not yet complete. Another meeting was
scheduled for April 15, 2003, to provide the results of the IPM runs, but members
were notified by EPA of its cancellation via e-mail on April 1.

In July 2003, Administrator Whitman responded to Congressman Waxman’s
request for the status of IPM runs for the working group. The Administrator
stated that it was the Agency’s intention to convene an additional FACA meeting
when the IPM analyses were complete. However, in March 2004, the Assistant
Administrator for Air and Radiation said the Agency would not provide the
additional MACT IPM analyses and would instead focus resources on developing
a cap-and-trade alternative, the administration's preferred regulatory approach.

The working group has not met since its last meeting in March 2003 and has not
been officially contacted by the Agency since its planned April 15, 2003, meeting
was cancelled. A formal notice of termination has not been issued to the working
group and, according to some members, they were not given an explanation as to
why the working group ended. EPA has stated on its web site that it began
proceeding with a cap-and-trade regulatory approach in the absence of
Congressional action on Clear Skies legislation. The FACA working group’s
                                29
          deliberations were stopped after Clear Skies was re-proposed and before EPA
          began developing its proposed cap-and-trade regulation. While some working
          group members indicated satisfaction with the work completed by the group,
          others considered the job unfinished due to the lack of opportunity to consider the
          additionally requested runs.

          According to senior EPA officials, the working group’s original charter was for
          only one year. One of the officials acknowledged that EPA had initially intended
          to conduct the runs requested by the working group but later decided that it would
          not be beneficial. These officials further indicated that since the working group
          had not reached consensus, the Agency did not believe the working group should
          have been extended.

Intra-Agency Review Limited

          According to staff involved, the intra-agency work group review process followed
          in this rulemaking varied significantly from past Agency practice and applicable
          guidance for Tier One rules in that the group only met two times and was not
          given an opportunity to provide meaningful feedback on the proposed rule.
          According to the Agency’s regulatory development guidance, a work group is to
          meet frequently enough to ensure that all significant issues and options are
          discussed and agreed upon. Then, the significant issues and several options to
          resolve each issue are to be provided to senior management. Senior management
          then selects those options they believe will best achieve the goals of the action for
          a Final Agency Review.

          The work group’s first meeting was held on February 27, 2003, and the second
          and final meeting took place on August 7, 2004. In preparation for the first
          meeting, the work group chair e-mailed to the work group members a copy of the
          Utility MACT FACA working group’s final report, along with a draft analytical
          blueprint for the rulemaking. According to EPA’s Action Development Plan, an
          analytical blueprint is “a document that spells out a work group’s plans for data
          collection and analyses that will support development of a specific action,” and is
          intended to be developed as “a collaborative effort.” The draft blueprint stated,
          “the intent of the rule is to require that oil-and-coal-fired units achieve a MACT-
          level of control,” and it listed the “minimum analytical needs” for the rulemaking:

          •	 A regulatory impact analysis, assessing the economic impact on industry of
             levels beyond the MACT floor.
          •	 Assessment of multi-pathway concerns.
          •	 A regulatory flexibility analysis addressing small business concerns.
          •	 Assessment of environmental justice concerns.
          •	 Children’s health concerns.
          •	 Unfunded mandate assessment, evaluating the impact of the rulemaking on
             State/local/tribal governments, some of which own or operate coal-fired units.
                                           30
•   ICR issues.

Although the above issues were identified for study in the draft analytical
blueprint, some were never fully addressed, such as the children’s health study
and an assessment of environmental justice concerns. The draft blueprint also
stated that:

    “. . . the EPA believes that emissions trading is prohibited under Section 112
    of the CAA. However, industry, and to a more limited extent, some other
    stakeholders would like to explore emissions trading as an option (perhaps in
    beyond-the-floor analyses) for this rulemaking.”

Members of the work group, including the Office of Research and Development
and the Office of Policy, Economics, and Innovation, submitted comments to the
draft analytical blueprint via e-mail to the work group chair. But work group
participants we interviewed stated that they received no feedback or modified
drafts of any work products based on their comments and input.

In preparation for the second intra-agency workgroup meeting, members were
asked to review and comment on four sections (approximately 42 pages) of an
early version of the draft (July 3, 2003) preamble. However, intra-agency
workgroup members received no modified work products that incorporated their
feedback. Additionally, no Final Agency Review meeting was held for the
proposed mercury rule whereby core intra-agency review participants had the
opportunity to concur or nonconcur with the proposed rule before it was sent to
OMB for review and final action.

Several EPA staff who were involved in the abbreviated intra-agency work group
review process told the OIG that it was made clear to them by their managers, and
in the case of one work group representative, by the work group chair, that
decisions about this rule were being made at a “higher level.” For example, in an
e-mail discussing intra-agency comments, a member of the work group was told:

    The decision was made at a much higher level than mine to
    “bypass” the normal EPA Work Group procedure prior to the
    proposal and we have been told that all the Office directors
    were contacted about both the process change and rulemaking.

Similarly, these officials told us that it became clear to members that their
feedback would not likely be considered. One Agency source said that, in
general, there was not a meaningful opportunity for EPA offices to comment on
this rule. Some Agency officials said they considered the intra-agency review
process to have been conducted, but at a higher staff level and with less input than
usual from lower staff levels. However, at least one office usually involved in the
intra-agency review process – the Office of Enforcement and Compliance
                                 31
                Assurance – was neither given the opportunity to review nor submit comments
                regarding the proposed rule before it was sent to OMB, according to former and
                current Office of Enforcement and Compliance Assurance officials contacted.

                According to senior EPA officials it is not unusual during the development of
                high-profile rules, particularly those under a tight deadline, for EPA to not strictly
                follow the Agency’s prescribed rulemaking process.

Requirements for Cost-Benefit Analyses Not Fully Implemented

                Although EPA conducted certain required analyses, other analyses were not
                completed. For rulemakings with an annual economic impact of $100 million or
                more, Executive Order 1286619 requires that Federal agencies, in deciding whether
                or how to regulate, assess all costs and benefits of available regulatory alternatives
                and provide the reasoning for selecting the proposed regulatory action over such
                alternatives. This Executive Order also directs that Federal agencies base their
                decisions on the best reasonably obtainable scientific, technical, and economic
                information concerning the need for, and consequences of, the intended
                regulation.

                EPA staff told OIG that senior management instructed them not to undertake
                certain scientific and technical analyses that they thought necessary. For example,
                staff were instructed during meetings not to conduct IPM runs (which could have
                been helpful in considering alternatives) until they were told the national mercury
                emissions per year desired for the MACT. As discussed in Chapter 2, EPA
                conducted analyses of various MACT floor levels, but presented only a 34-tons-
                per-year option to the public. In addition, the Agency did not fully analyze a
                beyond-the-floor MACT alternative.

                EPA’s cost-benefit analysis of the MACT proposal did not take into account
                mercury emissions reductions that would be gained as co-benefits resulting from
                NOx and SO2 controls installed under the proposed CAIR. However, the
                Agency’s cost-benefit analysis of the cap-and-trade option did consider CAIR
                co-benefits. This prevents a balanced comparison of the two options. EPA staff
                told us that a MACT-plus-CAIR alternative was not analyzed because, when the
                MACT floor was completed, CAIR had not yet been proposed. However, EPA
                issued a December 2004 Notice of Data Availability for the proposed rule, which
                included an analysis submitted by the Clean Air Task Force that estimates the
                impact (in terms of emission reductions) of CAIR in conjunction with the
                proposed MACT standard. The notice did not include a similar analysis by EPA.

                The Agency did not monetize the health benefits of mercury reductions, though


     19
          Regulatory Planning and Review, 58 FR 51735, October 4, 1993.
                                                    32
                    Office of Air and Radiation staff have said the final rule will include quantitative,
                    non-monetized endpoints as well as a qualitative discussion. EPA staff told us
                    that they have ongoing efforts to develop a benefits analysis, but that it is slow
                    moving and has not been completed. Since March 2004, when the Administrator
                    stated the Agency would take a closer look at the issue, there has been a process to
                    try and do a full benefits analysis, but the process is moving slowly. While a
                    benefits analysis should be based on scientific literature, staff told us that there
                    had been pressure to base the analysis on public comment through the Notice of
                    Data Availability. The notice presents a methodology for determining the benefit
                    of mercury reductions and requests comment on this methodology.

Required Children’s Health Analysis Not Comprehensive

                    EPA did not adequately evaluate the environmental health effects of the proposed
                    rule on children. Executive Order 1304520 requires such an evaluation because
                    “[a] growing body of scientific knowledge demonstrates that children may suffer
                    disproportionately from environmental health risks and safety risks.” In prior
                    MACT rulemakings EPA had determined that Executive Order 13045 and,
                    therefore, a children’s health evaluation, is not applicable because MACTs are
                    technology standards and apply consistently to covered sources. However, since
                    the proposed rule includes a cap-and-trade option, which is a performance
                    standard that could result in an uneven distribution of emissions, it is covered
                    under Executive Order 13045 and, therefore, an analysis of the rule’s impact on
                    children’s health is required.

                    Although the proposed rule states that EPA evaluated health and safety effects
                    pertaining to children, our review of the proposal and docket did not show that
                    EPA performed such analyses in accordance with Executive Order 13045. We
                    requested such analyses from EPA, but were not provided with any specific
                    studies of the rule’s impact on children’s health. Interviews with officials from
                    EPA’s Office of Children’s Health Protection indicated they were not involved
                    during the rule development. However, Office of Children’s Health Protection
                    staff said their lack of involvement in such functions is not unusual due to limited
                    staffing.21 Members of the Children’s Health Protection Advisory Committee
                    (CHPAC) told us that the proposed rule does not adequately take into account
                    children’s vulnerabilities. The CHPAC outlined their concerns in a January 26,
                    2004 letter to the Administrator, in which they made several recommendations,
                    including that the Agency “[e]valuate the possibility that hot spots could result”

         20
              Protection of Children From Environmental Health Risks and Safety Risks, 62 FR 19885, April 23, 1997.


         21
            A M ay 20 04 O IG re por t found that there was no over all, coo rdina ted stra tegy integr ating ch ildren’s
environmental health efforts into the Agency as a whole (The Effectiveness of the Office of Ch ildren’s He alth
Pro tection Canno t Yet Be Determ ined Qu antitatively; OIG Rep ort No. 2004 -P-00016; M ay 17, 2004).
                                                            33
                    from the cap-and-trade program as proposed.22 In a subsequent June 8, 2004 letter
                    to the Administrator, CHPAC additionally recommended that EPA “[e]valuate the
                    relative health benefits of reducing mercury exposure for children and women of
                    child-bearing age under the MACT and cap-and-trade regulatory options.”

                    EPA senior officials noted that prior studies on the health impact of mercury
                    addressed the impact of methylmercury exposure on children and, therefore, the
                    rule itself addresses children’s health. We recognize that current reference dose
                    levels for mercury exposure are based on the impact to children’s health.
                    However, we were not provided any analyses assessing the extent to which the
                    proposed rule may result in uneven distribution of mercury deposition that could
                    increase some children’s exposure to mercury. Office of Research and
                    Development officials noted that regardless of the extent of any additional
                    analysis, they do not know what the impact of reducing sources emissions by a
                    certain percentage would have on deposition or in what timeframe. However,
                    they noted that reductions in emissions will reduce atmospheric mercury, which in
                    turn will result in less deposition, lower mercury levels in fish, and ultimately
                    reductions in human exposure to mercury. EPA officials stated that this type of
                    extensive analysis had not been done for the proposed rule, but they hoped to have
                    a more detailed assessment for the final rule. They further explained that the
                    Notice of Data Availability issued in December 2004 proposed a process for
                    quantifying the proposed rule’s impact on mercury deposition and the resulting
                    bioaccumulation in the environment.

Scope Limitation: Inter-Agency Review

                    Due to time constraints23 and the fact that OMB controls this process and not
                    EPA, the OIG did not evaluate the inter-agency review process and EPA’s
                    response to the edits resulting from that process. The inter-agency review process
                    occurs under the direction of OMB after a proposed rule is submitted to the Office
                    of Information and Regulatory Affairs in OMB for review, as stipulated in
                    Executive Order 12866. The process is typically informal and, according to one
                    EPA official, details on the meetings between OMB and other agencies, as well as
                    comments submitted to OMB during the review, often are not included in the
                    formal docket.

                    It is difficult to determine every agency involved in the editing process, which
                    agency made specific edits to the proposal, or the timing of these edits based on
                    inter-agency review documents contained in the docket. We identified comments
                    from at least four agencies or offices other than EPA and OMB: the Department

        22
             Chap ter 3 of this report reco mmen ds that EP A further assess the risk of hot spo ts.

        23
         Our field work in some areas was limited in order to provide the results of our review to EPA
management in time for them to consider our recommendations in developing the final rule.
                                                      34
         of Energy; the Department of the Interior; the Small Business Administration; and
         the Council on Environmental Quality.

Conclusions

         The rulemaking process did not meet the expectations of some EPA staff and
         FACA work group members, and did not fully address certain Executive Order
         requirements to conduct cost-benefit and children’s health analyses. These
         deviations from prior practice and Executive Order requirements appeared to have
         occurred, in part, because of the Agency’s decision to include a proposed cap-and-
         trade option in the proposed rule, as well as a need to meet the deadlines for the
         proposed MACT rule reached in prior court settlements.

Recommendations

         We recommend that the Assistant Administrator for Air and Radiation:

         4-1	 Ensure that the Office adheres to the Action Development Process during
               EPA’s future rulemaking actions to include obtaining input from all
               relevant Agency Offices.

         4-2	 Conduct more in-depth cost-benefit analyses of the proposed mercury
               options to determine the preferred approach.

         4-3	 Conduct a more in-depth analysis of the impact of the proposed options on
               children’s health.

Agency Comments and OIG Evaluation

         The Agency stated that the draft report failed to recognize the nature of the
         regulatory development process and incorrectly stated that EPA did not
         adequately evaluate the proposed rule’s impact on children’s health. Further, the
         Agency stated that the draft report improperly characterized the process by
         suggesting that it had not been sufficiently inclusive. We believe the draft report
         accurately described the rulemaking process, and continue to believe that the
         Agency should have more comprehensively evaluated the proposed cap-and-trade
         rule’s impact on children’s health. A cap-and-trade program, while reducing
         overall emissions, can result in geographically uneven distributions of emissions.
         The proposed rule did not include an analysis of where or how likely such varying
         mercury emissions and resulting depositions could occur, and what impact this
         may have on children’s health. The OIG does not agree that the Agency review
         process was inclusive. As we noted in our draft report, according to staff
         involved, the intra-agency work group review process followed in this rulemaking
         varied significantly from past Agency practice and applicable guidance for Tier
                                         35
One rules. Given this rule’s far-reaching national implications for human health,
the environment, and the economy, the OIG believes it was important for the
Agency to have been more inclusive of available Agency expertise and external
stakeholder input to develop this rule. The Agency’s complete response to the
draft report and our evaluation of its response are in Appendix E.




                                36
                                                                                            Appendix A

                    Timeline of Events Related to
                    Development of Mercury Rule
       Date                                                Event
November 15, 1990     President signs CAA Amendments of 1990. Section 112 requires EPA
                      studies of mercury and Hazardous Air Pollutant emissions from utilities.
Decem ber 1997        EPA issues “Mercury Study Report to Congress.” Emissions trading
                      discussed as a control option.
February 1998         EP A is sues “Stud y of H aza rdous A ir Pollutan t Em issions from Electric
                      Utility Steam G enerating Units." Defers decision on whether regulation of
                      utilities is necessary and appropriate under CAA section 112.
July 11, 2000         National Academy of Sciences releases report, "Toxicological Effects of
                      Methylmercury," which concludes that EPA’s reference dose for
                      methylmercury is a scientifically defensible level. Estimates that 60,000
                      newb orns a year could experience neurological dam age due to m ercury.
Decem ber 2000        EPA Issues Federal Register Notice mak ing final determination that
                      regu lation of m ercury from utilities und er C AA sec tion 11 2 is “ap prop riate
                      and necessary.” Discusses cap-and-trade as an option but states that
                      such an approach must protect local populations close to a source.
August 1, 2001        First m eeting of U tility MA CT working grou p. Ch arge to the G roup is to
                      develop a MACT standard. Explicitly directed not to consider trading.
July 2002             Clear Skies Act of 2002 introduced in the Senate and House of
                      Representatives. Proposed a multi-pollutant approach to controlling SO 2,
                      NOx, and mercury emissions from power plants.
August 28, 2002       EPA contractor memo outlines options for developing proposed MACT
                      floor.
October 2002          Utility MACT working group issues final report. Consensus not reached.
                      Ad ditional IPM run s recom m ended based on MAC T em ission lim it
                      proposals from stakeholder groups.
February 27, 2003     Initial m eeting of intra-age ncy work grou p (on e of tw o total meeting s).
                      Analytical blueprint prepared for group addresses traditional MACT, not
                      cap-and-trade, and identifies minimum analyses needed.
February 27, 2003     Clear Skies re-introduced in House and Senate as Clear Skies Act of
                      2003.
March 4, 2003         W EST Associates issues white paper proposing multi-variability method
                      for determining MACT floor; presented at last meeting of Utility MACT
                      working group. Paper presented to FACA at its last meeting. Method
                      eventually adopted by EPA but with some changes.
March 4, 2003         Last meeting of Utility MACT working group. April meeting canceled by
                      EPA; group had planned to discuss results of recomm ended IPM runs.
March 14, 2003        Briefing pro vided to A dm inistrator W hitm an. Presentatio n state s E PA will
                      continue to develop a section 112 MACT standard unless Congress
                      rem oves the requ irem ent.

                                               37
        Date                                               Event
April 1, 2003        EPA cancelled last FACA working group meeting. E-mail indicates runs
                     not yet available, and meeting would be rescheduled at a later date.
August 7, 2003       Secon d (and final) intra-agency work group m eeting held, reviewing draft
                     preambles. Several MACT emission limits proposed, none of which
                     match those in published proposed rule.
November 4-5, 2003   E-mails between EPA officials discuss efforts to establish MACT floor
                     resulting in mercury emissions of 34 tons per year, based on IPM runs
                     using various proposed MACT em ission limits.
November 26, 2003    EPA m emo to file explaining MACT floor (based on W EST Associates
                     m ethod).
Decem ber 15, 2003   “Re gulatory Flex ibility Act Ana lysis” entered in Do ck et.
Decem ber 2003       EPA contractor issued mem orandum discussing beyond-the-floor
                     analysis.
Decem ber 15, 2003   Propos ed m ercury rule s igned.
January 2004         EPA R epo rt on B ene fit Analysis entered in Dock et.
January 28, 2004     “Energy and E con om ic Im pac t Ana lysis” entered in Do ck et.
January 30, 2004     Propos ed m ercury rule published in the Federal Register.

March 16, 2004       Supplemental Notice issued to the original proposed rule providing
                     proc edu res for im plem enting cap -and -trade pro pos al.




                                               38
                                                                                   Appendix B

             OIG’s Request for Documents Related to
                  Development of Utility MACT

             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  OFFICE OF INSPECTOR GEN ERAL
                                OFFICE OF PROGRAM EVALUATION
                              1301 CONSTITUTION AVENUE, N.W.(2460T)
                                     EPA WEST BUILDING
                                    WASHINGTON , DC 20004




November 15, 2004

MEMORANDUM

Subject:	       Document Request for Assignment Number 2004-1021 - Development of the
                Proposed MACT for Utility Units

To:	           Jeffrey Holmstead,
                Assistant Administrator for Air and Radiation

From:	         Kwai Chan, /s/
                Assistant Inspector General for Program Evaluation


This memorandum is a formal request to you and your staff cc’ed below for several documents
that we need in order to complete our work on the subject evaluation. The majority of these
documents have already been requested and are listed again herein. In addition, we are
requesting specific information (see item 7 below) not previously requested that is needed for us
to fully and comprehensively address our evaluation objectives. We request that you provide us
with the following information by November 26, 2004, in order that this information can be
fully considered in our review:


         1.	 Any and all statistical analysis and related internal correspondence for the two
             MACT IPM runs conducted in November 2003, including electronic records, that
             are not included in the docket.
         2.	 Any and all written OGC analysis concerning use of Section 111 vs. Section 112,
             both for the December 2000 findings and determination and the January 2004
             proposed rule, including electronic records.
         3.	 Any and all documentation showing final intra-agency concurrence (or equivalent)

                                                    39
           for issuing the proposed rule, including electronic records.
       4.	 Any and all written comments resulting from the intra-agency review process,
           including electronic records.
       5.	 The analysis related to children's health that was specifically referred to in the
           proposed rule’s preamble on page 4715 of the Federal Register Notice.
       6.	 The Agency analysis determining the origination of Latham and Watkins language
           that was included in the proposed rule’s preamble, and
       7.	 Any and all internal and external Agency correspondence or other written
           communications related to the development of the MACT floor that were developed,
           transmitted, and/or received during the period October 15, 2003 through December
           15, 2003, including e-mails meeting the definition of Federal Records.


We appreciate your prompt response to this request. Please contact Jim Hatfield, Assignment
Manager, at 919-541-1030, or Carolyn Blair, Project Manager, at 919-541-7702, to coordinate
the submittal of information related to this request. If any of the above information does not
exist please indicate that fact in your response.




cc: Robert Brenner, Deputy Assistant Administrator for Air and Radiation
    Bill Wehrum, Office of the AA for OAR
    Jason Burnett, Office of the AA for OAR
    Stephen Page, Director, OAQPS
    Sally Shaver, Director, Emissions Standards Division, OAQPS
    Bob Wayland, Combustion Group Leader, ESD, OAQPS
    William Maxwell, Principal Rulemaking Contact, Proposed MACT for Utility Units, ESD,
    Nikki Tinsley, Inspector General
    Eileen McMahon, Assistant Inspector General for Congressional and Public Liaison
    Mark Bialek, Counsel, OIG




                                                 40
   Status of Agency’s Response to OIG’s Request for Documents
              Related to Development of Utility MACT
Item Requested                                         Status
1. Any and all statistical analysis and related        1. We received limited information after the
internal correspondence for the two MACT               draft report was provided to the Agency for
IPM runs conducted in November 2003,                   comment. Specifically, we were provided
including electronic records, that are not             copies of Agency e-mails that discussed how
included in the docket.                                the information used in these MACT IPM
                                                       runs was developed.
2. Any and all written OGC analysis                    2. Since this was a legal issue before the
concerning use of Section 111 vs. Section              courts, we determined that we would not
112, both for the December 2000 findings               address this, so the information was not
and determination and the January 2004                 needed.
proposed rule, including electronic records.
3. Any and all documentation showing final             3. No documentation provided.
intra-agency concurrence (or equivalent) for
issuing the proposed rule, including
electronic records.
4. Any and all written comments resulting              4. No documentation provided.
from the intra-agency review process,
including electronic records.
5. The analysis related to children's health           5. Additional information in general was
that was specifically referred to in the               provided after the draft report was issued,
proposed rule’s preamble on page 4715 of               but no analysis on children’s health specific
the Federal Register Notice.                           to this rule was included.
6. The Agency analysis determining the                 6. The Agency pointed out the information
origination of Latham and Watkins language             in the docket related to this issue, but did not
that was included in the proposed rule’s               provide specific Agency analysis. Since this
preamble, and                                          issue was related to inter-agency review
                                                       process, which is controlled by OMB, we
                                                       did not fully address this issue (See Scope
                                                       Limitation in Chapter 4 of this report.)




                                                  41
7. Any and all internal and external Agency        7. No documentation or response received
correspondence or other written                    other than the limited information in the e-
communications related to the development          mails provided for Request 1 above.
of the MACT floor that were developed,
transmitted, and/or received during the
period October 15, 2003 through December
15, 2003, including e-mails meeting the
definition of Federal Records.




                                              42
                                                                                                                                                           Appendix C


                                                    Different MACT Floor Proposals
                                                                              Emission Limits (Input base - lbs/Tbtu)

                                                     Process Sub-Categories                                             Coal Type Sub-Categories

                                 FBC                                                                                                                               Total
                               (sub-Bit.    FBC ­                  Bit. ­     Bit. ­     Bit. -              Sub-Bit.               Sub-               Coal      Estimated
     Source            FBC       + Bit)    Lignite      Other      Hot        Wet      Saturated    IGCC      + Bit.      Bit.      Bit.    Lignite   Refuse     Emissions

 EPA Proposed
 Rule                  NA         NA         NA          NA         NA         NA           NA       19.0      NA        2.000     5.800     9.200       0.4        34 [1]

 FACA-
 Environmental        0.190       NA         NA        0.210 [2]    NA         NA           NA       NA        NA         NA         NA       NA         NA         1.9 [3]

 FACA -                                                                                                                                                            25-30 [3]
 Industry             2.000       NA         NA          NA        3.700    3.200        2.200       NA        NA         NA       4.200     6,500       NA         36 [6]

 FACA - State &
 Local - Option 1      NA         NA         NA          NA         NA         NA           NA       NA       0.600       NA         NA       NA         NA         6.7 [3]

 FACA - State &
 Local - Option 2      NA         NA         NA          NA         NA         NA           NA       NA       0.400       NA         NA       NA         NA         6.3 [3]

 FACA - Clean
 Energy Group          NA        0.320       12.0        NA         NA         NA           NA       NA       1.223       NA         NA      9.091       NA        13.1 [3]

 Clean Air Task
 Force [4]             NA         NA         NA          NA         NA         NA           NA       4.9       NA        0.420     1.500     4.500       0.1        12 [5]


Abbreviations                                              Notes:
Bit.:    Bituminous                                        1 Estimate based on Integrated Planning Model results.
FACA:    Federal Advisory Committee Act                    2 Applied to all units except FBC
FBC:     Fluidized Bed Combustion                          3 Based on estimates developed by Northeast States for Coordinated Air Use Management.
Ib/Tbtu: pounds per Trillion British thermal units         4 Clean Air Task Force preferred a MACT with no sub-categorization but re-computed a MACT floor based on
IGCC:    Integrated Gasification Combined Cycle               EPA’s proposed subcategories.
MACT: Maximum Achievable Control Technology                5 Based on Integrated Planning Model run and includes co-benefit reductions from Clean Air Interstate Rule.
NA:      Not Applicable                                    6 Based on calculations performed by the industry group.

                                                                                       43
                                                                                                   Appendix D


                     EPA’s Rule Development Process

EPA actions are assigned to one of three tiers based on the nature of the anticipated issues and
the level of cross-Agency interactions needed to ensure a quality action. The proposed rule is a
Tier one rule and meets the following criteria.


 Tier 1 Criteria: Administrator's Priority Actions
 This tier will include top actions that demand the ongoing involvement of the Administrator's office and
 extensive cross-Agency involvement on the part of the Assistant/Regional Administrators.


 Factors to consider in making a judgment about placing an action in Tier 1 are:
 •	   m ajor c ross Ag enc y or cross-m edia policy im plication s or p recede nts
 •	   potential for major or precedent-setting implem entation issues
 •	   potential for major cross-Agency, cross-media, or inter-agency controversy
 •	   pote ntial for m ajor e con om ic im pac t on other lev els of governm ent or the re gulated com m unity
 •	   highly controversial in terms of external interest
 •	   ongoing, form al involvem ent of the Agenc y's highest level of ma nagem ent (Adm inistrator,
      Deputy Administrator) is necessary or desired
 •	   presents a significant opportunity for the Agency to advance the Administrator's priorities




 Actio n sh ou ld be pla ced in T ier 1 if...
 •	   science issue(s) are precedent setting and controversial
 •	   economically significant per Executive Order 12866 (i.e., > $100 million), unless the program
      office can justify placem ent in Tier 2
 •	   econom ics issue(s) are precedent s ettin g and controversial




The program office develops the proposed rule, which may take months to years depending on
the complexity of the rule, priorities, and court/statutory deadlines. Rule development follows
five major stages, as outlined in the Agency’s Action Development Plan. The first stage is
determining the proper tier for the action based on the criteria outlined above. The following
table describes the five stages of an Action Development Plan.



                                                         44
Five Major Stages of an Action Development Plan

Stage 1. Tiering the Action
•   Understand tiering
•   Place action in the appropriate tier
•   Obtain tiering approval

Stage 2. Developing the Proposed Rule or Draft Action
•   Charter the workgroup
•   Get the workgroup underway
•   Prepare the preliminary analytic blueprint and get early guidance from senior managem ent
•   Prepare the detailed analytic blueprint
•   Senior m ana gem ent appro val of a nalytic blue print
•   Com plete data gathering, consultation, peer review, analyses, and options development
•   Select Options
•   De velop the propo sed action by preparing pre am ble, rule, and sup porting do cum ents
•   Conduct F inal Agency R eview to ensure senior m anagem ent approval
•   Office of Policy, Economics, and Innovation review for rules deemed as “significant” under
    Executive Order 12866

Stage 3. Requ esting O M B R eview for Propo sed an d Final Actions (if necessary)
•   De term ine if O MB review is nec ess ary. Only those reg ulatory actions de signated “significant”
    under Executive Order 12866, “Regulatory Planning and R eview ” are subjec t to review by O MB
    (e.g., actions having an annual effect on the economy of $100 million)
•   Prepare regulatory action for submission to OMB
•   Address OMB’s comm ents
•   Docket the OMB review process

Stage 4. Requesting the Administrator’s Signature and Publishing an Action
•   Requ est the Adm inistrator’s signature
•   Publish the action in the Federal Register and op en dock et(s)

Stage 5. Developing the Final Action and Ensuring Congressional Review
•   Re ceive pub lic com m ents
•   Co nsider an d ad dres s pu blic com m ents
•   Determine next steps
•   Submit actions to Congress under the Congressional Review Act or the Courtesy Copy Policy




                                                    45
                                                                                  Appendix E


    Agency Comments to the Draft Report and OIG Evaluation


MEMORANDUM


SUBJECT:	            Comments on the December 17, 2004 Draft Evaluation Report Entitled,
                      Additional Analyses of Mercury Emissions Needed Before EPA
                      Finalizes Rules for Coal-Fired Electric Utilities
FROM:	                Jeffrey R. Holmstead
                      Assistant Administrator for Air and Radiation
                      U.S. Environmental Protection Agency
                      William H. Farland, PhD
                      Acting Deputy Assistant Administrator for Science
                      Office of Research and Development
                      U.S. Environmental Protection Agency
TO:	                  Nikki Tinsley
                      Inspector General
                      U.S. Environmental Protection Agency
DATE:                 January 24, 2005


Thank you for giving us the opportunity to review the draft report referenced above and
to open dialogue with OIG staff. We have substantial concerns with the referenced draft
including several inaccuracies and flaws that we feel must be addressed before the report
is finalized. This memorandum briefly summarizes our major concerns.
Agency scientists and experts know a great deal about mercury: what are the sources,
both domestically and internationally; where does mercury in this country come from;
what is the chemistry that converts mercury deposited on the land and in the water into
mercury that becomes available to the food chain; what are the routes of exposure in this
country to mercury; what are the potential impacts of controls on that exposure; and what
is the status of the various technologies now being studied.
While some questions remain in our understanding of many of these linkages, this will
not prevent the Agency from regulating mercury from power plants, and it will do so as
effectively as possible, informed by the full body of knowledge it now possesses. The
Agency also recognizes that mercury emissions from facilities as complex as coal-fired
power plants should not be considered in isolation of the other efforts to reduce air
pollution; hence the Administration’s strategy to further control SO2 and NOx while
instituting new, specific regulations for mercury. The Agency believes that such a

                                            46
a strategy can deliver significant overall health benefits to a broad segment of the American
public.
EPA strongly urges the IG to take the broad base of information we know about mercury, as
well as the outstanding unanswered questions, into consideration when developing the final
report.


1. The draft report criticizes the rulemaking process as being incomplete even before a
final rule is issued. This critique rings hollow given the iterative nature of rulemaking. The
rulemaking process consists of a proposed rule, a public comment period and often additional
information before final decisions are made. The IG characterized the process as incomplete
before the process had finished. For example, a number of the issues regarding benefit-cost
analysis raised in the draft report are issues that the Agency is working on as evidenced by its
Notice of Data Availability on November 30, 2004.


    OIG Response: Our review was initiated at the request of seven U.S. Senators, who asked
    that we complete this review in sufficient time to allow the Agency to address any issues
    raised in our report. We have added information to the Scope and Methodology section in
    Chapter 1 of the Final Report explaining that our review was completed while the Agency
    was still in the process of finalizing the rule. Accordingly, our report reflects findings and
    observations about the status of the process at the time we completed our review. We look
    forward to seeing the results of the Agency’s additional cost-benefit analyses, as
    recommended in our report.



2. The draft report inaccurately suggests that US power plant mercury emissions
represent a large part of the human exposure problem. Most exposure to mercury comes
from eating fish from the world’s oceans and the mercury in these fish comes from a variety of
sources released over many years, including natural emissions like volcanoes, and
anthropogenic emissions from many countries, representing emissions from a variety of
sectors, in addition to emissions from US power plants. It is because US power plants are part
of the larger problem that EPA has proposed, for the first time ever, to require reductions from
this sector.
Given the global nature of mercury exposure and the uncertainty in the time to realize benefits
from current emission reductions, the action to reduce mercury emissions from power plants
must be seen in the larger context of all the activities EPA and others in the international
community are implementing to reduce exposure to mercury.




                                                47
    OIG Response: Our draft report did not suggest that mercury emissions from U.S. power
    plants represent a large part of the human exposure problem. Power plants are one of
    many sources of mercury emissions. The primary objective of our review was to assess
    EPA’s development of the proposed rule for regulating mercury emissions from coal-fired
    electric utility units, and we included information in our draft report on mercury emissions
    and mercury health effects for background purposes. Nonetheless, we have included
    additional information in Chapter 1 of the Final Report to put total U.S. mercury and U.S.
    power plant emissions in the context of global mercury emissions. We understand that
    primary route of human exposure to mercury is through the consumption of fish and that
    the Centers for Disease Control and Prevention surveys indicate that seafood is the
    predominant type of fish consumed by women of child-bearing age and children.
    However, certain subgroups, such as Native Americans, eat more fresh-water fish and may
    be more susceptible to mercury exposure than others. We added this information to the
    background section of our final report.




3. The draft report does not comprehensively and accurately describe how the proposed
cap-and-trade system would work, leading the reader with misimpression about what our
experience and modeling has taught us. The draft report fails to recognize that a
cap-and-trade system requires emissions reductions on a concrete timeline of declining caps,
thus leading to continual reduction of emissions and promotion of new technologies. It also
fails to acknowledge that, under this system, the largest emitters typically will be the first to
reduce their mercury emissions and will generally achieve the greatest level of reductions.
The draft report criticizes the cap-and-trade proposal for not requiring the installation of
mercury-specific controls until 2018, but this is inaccurate and reflects a misunderstanding
about how cap-and-trade works. The report should recognize the fact that it is reductions in
mercury emissions that will lead to improvements in public health and these reductions will
occur much earlier than 2018. Moreover, neither the Maximum Achievable Control
Technology (MACT) approach nor the cap-and-trade approach would require any particular
technology for controlling mercury. Either approach would require power plants to meet
certain standards for mercury control, and then let individual plants find the best way to meet
those standards.


    OIG Response: One of the objectives of our review was to evaluate whether the proposed
    mercury cap-and-trade rule was sufficiently protective of public health. As a result, we
    highlighted certain concerns with the rule as proposed. As such, we limited our focus of
    the mercury cap-and-trade proposal to concerns about the interim cap level, the potential
    for hot spots formation, the safety valve provision, the exemption of small emitters, and
    tribal impacts.




                                               48
    Our draft report portrayed an accurate representation of how the mercury cap-and-trade
    program works. While the proposed mercury cap-and-trade rule should ultimately result
    in emissions reductions, we do not agree that the proposal provides a “concrete timeline
    of declining caps.” For example, the proposed rule provides an interim cap that is based
    on co-benefits from existing technologies and can be achieved without the implementation
    of mercury-specific controls. Since the interim cap for mercury emissions can be achieved
    without mercury-specific controls, the proposed rule may not adequately promote the use
    of new technologies. Also, the only other mercury cap is the 2018 final cap, and EPA
    modeling indicates it may not be met in 2018 due to the banking provisions of the
    proposed mercury trading program. Finally, our draft report noted that neither the
    proposed cap-and-trade nor the MACT option require the use of any specific technology.


    While EPA has experience with cap-and-trade programs such as the Acid Rain program,
    there are differences in the transport and fate of SO2 and mercury emissions which need
    to be addressed in a cap-and-trade approach to controlling mercury emissions. For
    example, SO2 emissions are primarily deposited regionally and globally, while mercury
    can deposit locally. Additional differences between these two cap-and-trade programs
    were highlighted in Chapter 3 of the draft report.




4. The draft report incorrectly characterizes the calculation of the MACT standard. The
draft report did not independently calculate the MACT floor, but instead simply relied on
assertions made by critics of the proposal as the basis for their critique. The proposed MACT
floor was calculated in accordance with the requirements of CAA Section 112(d) by basing the
standard on what the top performing 12 percent of units were achieving in practice, taking into
account subcategorization and variability.
Contrary to the claims in the draft report, the Agency did investigate beyond-the-floor MACT
alternatives and did propose a beyond-the-floor standard where technology was found to be
available (i.e., Integrated Gasification Combined Cycle (IGCC) subcategory).




                                              49
    OIG Response: The OIG did not inaccurately characterize the calculation of the MACT
    floor. Our analysis was based on discussion with a number of EPA stakeholders and EPA
    officials, and review of supporting documentation. We found evidence that although the
    MACT floor was ostensibly based on data from the top performing 12 percent of units, this
    data was analyzed with a final target already in mind, i.e., 34 tons. As stated in the
    Agency’s Comment 5 to our draft report, this “floor” of 34 tons was obtained during the
    Clear Skies legislative process. Accordingly, we do not consider this floor to be based on
    an unbiased analysis of what the top performing 12 percent of units were achieving.
    With respect to IGCC units, our review focused primarily on the development of the
    standards for existing units. Of the over 400 coal-fired power plants in operation in the
    U.S., two are IGCC plants. Although EPA did not propose a beyond-the-floor standard
    for existing IGCC units, EPA proposed an emission limit for new IGCC units that was
    below the calculated floor for IGCC units and was based on EPA’s determination that
    mercury reduction of 90 percent could be obtained for this subcategory through the use of
    carbon bed technology.



5. The draft report suggests that the proposed rule was flawed because other regulatory
alternatives that would achieve emissions levels lower than about 34 tons per year were
not developed or proposed. In particular, the draft report makes much of the fact that the
MACT proposal was developed with the goal of achieving a nationwide emissions level from
affected power plants of about 34 tons per year. The report fails to consider the fact that EPA
had developed extensive information about mercury emissions and control techniques in the
power sector during the MACT regulatory development process and during the development of
the Clear Skies initiative. That work caused us to conclude that mercury reductions could, in
fact, be achieved in the power sector over the 3-4 year MACT compliance period specified by
the statute. However, these reductions would not come for the most part from mercury-specific
controls (such as activated carbon injection). Extensive work conducted by the Office of Air
and Radiation and the Office of Research and Development indicated that mercury-specific
controls will not become readily available for commercial application to this industry until
2010 or later - well beyond the MACT compliance period. Consequently, the proposed rule is
predicated on the assumption that virtually all mercury reductions during the MACT
compliance period would have to be accomplished as a co-benefit of installing air pollution
controls designed to remove SO2 or NOx. As part of the Clear Skies effort, EPA had
extensively studied the capacity of the power sector to install SO2 and NOx controls during the
period up to 2010. That work showed that 34 tons per year was the lowest level of mercury
emissions that we could reasonably expect the power sector to achieve through the aggressive
application of SO2 and NOx controls up to 2010. Further, as a part of the FACA process
established for this rulemaking, industry submitted what they thought would be possible under
a true co-benefit approach (i.e., no mercury-specific controls). Their estimate was that 36 tons
per year of mercury would be emitted under a MACT approach. The EPA proposal is
grounded in careful analysis as to what levels of mercury control reasonably can be expected
over the MACT compliance period.



                                               50
   OIG Response: Our draft report concluded that the MACT development process was
   compromised for several reasons. This included the fact that several MACT floor
   proposals were lower than the EPA’s proposed MACT rule, including several proposals
   developed by EPA in trying to achieve a floor that would result in annual emissions of 34
   tons. This included two EPA IPM runs that showed national emissions of 29 tons and 27
   tons, that were not included in the rulemaking docket or available for public comment.
   While the Agency has conducted analysis to determine the co-benefit of SO2 and NOx
   controls, we do not believe this meets the requirements of CAA section 112(d) in
   developing the MACT standard. For example, the co-benefit is based on an average
   performance of all units, not just the best performers. We continue to believe the Agency
   should conduct additional analyses before finalizing the rule. As noted in the draft report,
   the Government Accountability Office is conducting a review of technology-related issues
   for the proposed mercury rule.



6. The draft report fails to recognize the nature of the regulatory development process
and incorrectly states that EPA “did not adequately evaluate the environmental health
effects of the proposed rule on children.” We have made it clear from the start of the
rulemaking process that the health effects of greatest concern are possible developmental
effects in fetuses and young children exposed to unsafe levels of methylmercury. Unlike most
other rules that EPA develops, this rulemaking is singularly directed at developing an
appropriate regulatory approach for addressing the potential impacts on children. Evidence of
this can be seen in EPA’s first guiding principle in the development of a final mercury rule
which states that the rule will concentrate on the need to protect children and pregnant women
from the health impacts of mercury.
Consistent with this principle, EPA Office of Air and Radiation participated in an ongoing
dialogue with the Children’s Health Protection Advisory Committee (CHPAC) and responded
to CHPAC’s recommendations on mercury exposure in children. Further, EPA and others
have conducted extensive work on the health effects of mercury for the developing fetus and
young children, including a National Academy of Sciences review completed in 2000. The
Inspector General’s draft report misses this key point.




                                              51
   OIG Response: We do not believe we failed to recognize the nature of the rulemaking
   process. Further, the Agency should have more comprehensively evaluated the proposed
   cap-and-trade rule’s impact on children’s health. A cap-and-trade program, while
   reducing overall emissions, can result in geographically uneven distributions of emissions.
   The proposed rule did not include an analysis of where or how likely such varying
   mercury emissions and resulting depositions could occur, and what impact this may have
   on children’s health.
    Children’s Health Protection Advisory Committee members did not characterize their
    interaction with the Agency as an ongoing dialogue. Committee members told us that the
    Agency’s response to their concerns with the proposed rule did not satisfactorily address
    their recommendations.




7. The draft report improperly characterizes the process by suggesting that it has not
been sufficiently inclusive. EPA has held dozens of high-level inter-office and external
meetings on this rule. This inclusive process was needed both because the rule has
far-reaching national implications for human health, the environment, and the economy and
also because a well-informed decision on an issue this complicated requires hearing diverse
perspectives. While there is always room to improve communications within and with those
outside of EPA, there is little basis to fault the Agency in this case.


    OIG Response: The OIG does not agree that the Agency review process was inclusive.
    As we noted in our draft report, according to staff involved, the intra-agency work group
    review process followed in this rulemaking varied significantly from past Agency practice
    and applicable guidance for Tier One rules. Specifically, the work group process
    followed in this rulemaking was unusual in its short duration, infrequent meetings, late
    start with respect to the final rule deadline, and overall lack of communication and
    feedback between the work group and Agency decision makers. Further, work group
    members were not given the opportunity to review and comment on an entire draft
    proposal before it was published in the Federal Register. For example, staff from the
    Office of Enforcement and Compliance Assurance were never given a draft of the
    proposed rule to review or comment on, thus this office could not assess the adequacy of
    the proposed rule’s monitoring, record keeping, or reporting provisions as it typically
    does for Tier One MACTs. With respect to meeting with external stakeholders, tribal
    representatives told us that they were not consulted during the development of the
    proposed cap-and-trade option. Given this rule’s far-reaching national implications for
    human health, the environment, and the economy, the OIG believes it was important for
    the Agency to have been more inclusive of available Agency expertise and external
    stakeholder input in developing this proposed rule.




                                              52
Again, thank you for the opportunity to review the draft report. We would be happy to work
with you and your staff to ensure that you promptly receive all the information and analysis you
need to finalize the report. The final report should include an improved discussion of (1) the
global nature of mercury exposure and the uncertainty in the time to realize benefits from
current emission reductions; (2) how a proposed cap-and-trade system would require emissions
reductions on a concrete timeline; (3) the approaches to calculation of the MACT floor; (4) the
substantial effort EPA devoted to evaluating the risk of mercury exposure on children; and (5)
the inclusiveness of EPA’s process towards reaching a final rule.


    OIG Response: The Agency’s comments have been included in the final report as
    appropriate. We appreciate the efforts of both the Office of Air and Radiation and the
    Office of Research and Development in working with us to clarify certain technical issues
    and in providing prompt input so that we could issue our report in a timely manner.




                                               53
                                                                             Appendix F

                                    Distribution

Acting Administrator (1101A)

Assistant Administrator for Air and Radiation (6101A)

Deputy Assistant Administrator for Air and Radiation (6101A)

Acting Deputy Assistant Administrator for Science, Office of Research and Development   

      (A101R)
Acting Deputy Assistant Administrator for Management, Office of Research and Development
      (A101R)
General Counsel, Office of General Counsel (4010A)
Agency Followup Official (the CFO) (2710A)
Agency Followup Coordinator (2724A)
Audit Followup Coordinator, Office of Air and Radiation (6102A)
Audit Followup Coordinator, Office of Research and Development (A102R)
Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Associate Administrator for Public Affairs (1101A)
Director, Office of Air Quality Planning and Standards (C404-04)
Deputy Director, Office of Air Quality Planning and Standards (C404-04)
Audit Liaison, Office of Air Quality Planning and Standards (C404-2)
Inspector General (2410)




                                             54
